                                Office of Inspector General
                               Corporation for National and
                                        Community Service




      AGREED-UPON PROCEDURES REVIEW OF
    CORPORATION FOR NATIONAL AND COMMUNITY
         SERVICE GRANTS AWARDED TO
     GREATER PITTSBURGH LITERACY COUNCIL

              OIG REPORT NUMBER 10-17




                       Prepared by:

                  Cotton & Company LLP
                     635 Slaters Lane
                  Alexandria, VA 22314




This report was issued to Corporation management on August 3, 2010. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than February 3, 2011, and complete its corrective actions by August 3,
2011. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                           OFFICE OF INSPECTOR GENERAL

                                        August 3, 2010


TO:            John Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 10-17, Agreed-Upon Procedures Review of Corporation for National
               and Community Service Grants Awarded to Greater Pittsburgh Literacy Council


Attached is the final report for the above-noted agreed-upon procedures review. We contracted
with the independent certified public accounting firm of Cotton and Company LLP (Cotton) to
perform the procedures. The contract required Cotton to conduct its review in accordance with
generally accepted government auditing standards.

Cotton is responsible for the attached report, dated July 21, 2010, and the conclusions
expressed therein. We do not express opinions on the Consolidated Schedule of Claimed and
Questioned Costs, or the Schedule of Claimed and Questioned Costs for each subgrantee,
conclusions on the effectiveness of internal controls, or the grantee’s compliance with laws,
regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by February 3, 2011. Notice of final action is due by August 3, 2011.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ronald
Huritz, Audit Manager, at (202) 606-9355.

Attachment

cc:     Donald Block, Executive Director, GPLC
        William Anderson, Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
          Management, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        Bridgette Roy, Administrative Assistant, CNCS
        Michael Gillespie, Operations Managing Partner, Cotton & Company LLP




               1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                   202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                      Senior Corps  AmeriCorps  Learn and Serve America
                                   OFFICE OF INSPECTOR GENERAL
                                  AGREED-UPON PROCEDURES FOR
                          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                        GRANT AWARDED TO
                               GREATER PITTSBURGH LITERACY COUNCIL


                                                          CONTENTS


Section                                                                                                                       Page


Executive Summary .........................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                      4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ............................                                  7

Schedule A: San Diego Council on Literacy ...................................................................                  8

Schedule B: Literacy Alliance of Greater New Orleans .................................................. 18

Exhibit B: Compliance Results ........................................................................................ 22

Appendices

A: Greater Pittsburgh Literacy Council’s Response to Draft Report
B: Corporation for National and Community Service’s Response to Draft Report
C: Summary of Questioned Education and Accrued Interest Awards
                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service,
contracted with Cotton & Company LLP to perform agreed-upon procedures to assist the
OIG in grant cost and compliance testing of Corporation-funded Federal assistance provided
to the Greater Pittsburgh Literacy Council (GPLC).

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of
$225,703, education awards of $131,022 and accrued interest awards of $1,674. A
questioned cost is an alleged violation of a provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the expenditure of funds
or a finding that, at the time of testing, includes costs not supported by adequate
documentation. Detailed results of our agreed-upon procedures on claimed costs are
presented in Exhibit A, Consolidated Schedule of Claimed and Questioned Costs, and the
supporting schedules.

Participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards and, in some cases, accrued interest awards funded by the
Corporation’s National Service Trust. These award amounts are not funded by Corporation
grants and thus, are not included in claimed costs. As part of our agreed-upon procedures
and using the same criteria used for the grantee’s claimed costs, we determined the effect
of our findings on members’ eligibility for education awards and accrued interest awards.

The following is a summary of grant compliance testing results. These results, along with
applicable recommendations, are discussed in Exhibit B, Compliance Results.

1. Subgrantees claimed unallowable and unsupported costs.

2. Subgrantees had weaknesses in member timekeeping procedures and, in some
   instances, timesheets did not support member eligibility for some education awards.

3. Subgrantees did not maintain documentation to demonstrate that criminal history
   checks were conducted for all members and were in compliance with AmeriCorps
   provisions.

4. Subgrantees did not comply with AmeriCorps citizenship eligibility requirements.

5. Subgrantees could not demonstrate that some members received performance
   evaluations, and all end-of-term evaluations did not meet AmeriCorps requirements.

6. Subgrantees did not complete all member enrollment and exit forms and enter them
   into the Corporation’s reporting systems in accordance with AmeriCorps
   requirements.

7. GPLC and its subgrantees did not follow certain AmeriCorps requirements.

8. One subgrantee’s financial management system did not adequately account for and
   report Federal and match grant costs in accordance with Federal requirements.


                                           1
9. One subgrantee did not adequately account for and report match grant costs in
   accordance with Federal requirements.

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures
(AUP) Program for Corporation Awards to Grantees (including subgrantees), dated May 2009.
Our procedures covered testing of the following grant:

                                                                                      Total Award
                                                                                      During AUP
 Grant Program                 Award No.       Award Period          AUP Period          Period
 AmeriCorps National Direct   06NDHTX002     09/19/06-09/18/09    09/19/07-09/18/09    $3,215,520

OIG’s AUP program included:

      Obtaining an understanding of GPLC and its subgrantee monitoring process.

      Reconciling GPLC’s claimed grant and match costs and a sample of subgrantees to
       their accounting systems.

      Testing subgrantee member files to verify that records support eligibility to serve,
       allowability of living allowances, and education awards.

      Testing GPLC’s compliance and a sample of subgrantees on selected AmeriCorps
       provisions and award terms and conditions.

      Testing GPLC’s claimed grant and match costs and a sample of subgrantees to
       ensure:

          AmeriCorps grants were properly recorded in GPLC’s general ledger and
           subgrantee records;

          Costs were properly matched; and

          Costs were allowable and properly documented in accordance with applicable
           Office of Management and Budget (OMB) circulars, grant provisions, award
           terms, and conditions.

We performed testing at GPLC and two subgrantee sites from September 2009 through January
2010.

BACKGROUND

The Corporation

The Corporation supports a range of national and community service programs that provide
an opportunity for participants to engage in full- or part-time periods of service. The
Corporation funds service opportunities that foster civic responsibility and strengthen
communities. It also provides educational opportunities for those who have made a
substantial commitment to service.

                                            2
The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Service-Learning (Learn and Serve America). AmeriCorps, the largest of
the initiatives, is funded in two ways: grants through state commissions and direct funding
to applicants, including funding under the National Direct Program. The AmeriCorps
National Direct grant is an annual award passed through the grantee to its subgrantee sites.
Subgrantees recruit and select volunteers who must qualify to earn a living allowance and/or
education awards.

Greater Pittsburgh Literacy Council

GPLC was founded in 1976 and became a non-profit corporation in 1982. Its mission is to
ensure that adults and families acquire reading, writing, math, language, computer, and
workplace skills. GPLC became the grantee for the AmeriCorps National Direct program
called Literacy*AmeriCorps in 2006. GPLC provides programmatic and fiscal oversight,
technical assistance, and support for its operating site and seven subgrantees, including the
San Diego Council on Literacy (SDCOL) and the Literacy Alliance of Greater New Orleans
(LAGNO). We performed testing at these two subgrantee sites.

EXIT CONFERENCE

We discussed contents of the draft report with GPLC and Corporation representatives on
April 1, 2010, at GPLC’s offices in Pittsburgh. We have summarized GPLC’s comments in
the appropriate sections of this report and have included its complete comments in
Appendix A. Its response states that the contract for one of its subgrantees, for whom there
are various findings in this report, has not been renewed.

The Corporation did not have specific comments, but intends to respond in its management
decision at a later date (see Appendix B).




                                            3
July 21, 2010


Office of Inspector General
Corporation for National and Community Service

                              INDEPENDENT ACCOUNTANTS’ REPORT ON
                               APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures for Corporation Awards to Grantees (including Subgrantees), dated May 2009.
These procedures were agreed to by the OIG solely to assist it in grant cost and compliance
testing of Corporation-funded Federal assistance provided to GPLC for the award detailed
below.

This AUP engagement was performed in accordance with standards established by the
American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the
OIG. Consequently, we make no representation regarding the sufficiency of the procedures,
either for the purpose for which this report has been requested or any other purpose.

Our procedures covered testing of the following award:

                                                                                    Total Award
                                                                                    During AUP
 Grant Program                  Award No.     Award Period         AUP Period          Period
 AmeriCorps National Direct    06NDHTX002   09/19/06-09/18/09   09/19/07-09/18/09    $3,215,520

We performed testing of this Literacy*AmeriCorps program award at GPLC and two of its
subgrantees sites, SDCOL and LAGNO. We selected samples of labor, benefits, and other
direct costs at GPLC and the two subgrantees that were reported by GPLC on its
September 30, 2009, Financial Status Report (FSR). We also tested certain grant
compliance requirements by sampling the 16 of 234 subgrantee members, shown on the
following page. We performed all applicable testing procedures in the AUP program for
each sampled member.




                                            4
                                  PY 2007-2008           PY 2008-2009
                                Total    Sampled       Total    Sampled
                Site           Members Members        Members   Members
                SDCOL             12        4            19        3
                LAGNO             24        5            21        4
                Other Sites       79        0            79        0
                Total            115        9           119        7


At the request of the OIG, we expanded citizenship, criminal history checks, and timesheet
testing at SDCOL. The scope of expanded testing is shown below:

                                       Expanded Member Sample Tested
                                                  Criminal
                Program Year        Citizenship   History   Timesheets
                2006-2007                 0          0           13
                2007-2008                 8          8            6
                2008-2009                16         16           14
                Total                    24         24           33


RESULTS OF AGREED-UPON PROCEDURES

We questioned claimed Federal-share costs of $225,703. A questioned cost is an alleged
violation of provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds or a finding that, at the time of
testing, includes costs not supported by adequate documentation.

We questioned education awards of $131,022 and accrued interest awards of $1,674.
Grant participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards and repayment of student loan interest accrued during the term
of service from the Corporation’s National Service Trust. These award amounts are not
funded by Corporation grants and thus are not included in claimed costs. As part of our
AUP, and using the same criteria as claimed costs, we determined the effect of our findings
on education and accrued interest award eligibility.

Detailed results of our agreed-upon procedures on claimed costs are in Exhibit A and the
supporting schedules. Results of testing grant compliance are summarized in Exhibit B. We
were not engaged to and did not perform an examination, the objective of which would be
expression of an opinion on the subject matter. Accordingly, we do not express such an
opinion. Had we performed other procedures, other matters might have come to our
attention that would have been reported.




                                            5
This report is intended solely for the information and use of the OIG, the Corporation, GPLC,
and the U.S. Congress, and is not intended to be and should not be used by anyone other
than these specified parties.


COTTON & COMPANY LLP




Michael W. Gillespie, CPA, CFE
Operations Managing Partner




                                            6
                                                                                    EXHIBIT A

                         GREATER PITTSBURGH LITERACY COUNCIL
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS

                              Federal Costs                    Questioned
                  Awarded       Claimed     Questioned Ed Awards Accrued Interest    Reference
GPLC               $257,224      $257,224          $0         $0           $0
SDCOL               347,760       282,337     207,567    122,175       $1,674        Schedule A
LAGNO               557,762       422,638      18,136      8,847            0        Schedule B
Other Subgrantees 2,052,774     1,753,065           0          0            0
Total            $3,215,520    $2,715,264    $225,703   $131,022       $1,674



   Note:

   Schedule A: San Diego Council on Literacy (page 8)
   Schedule B: Literacy Alliance of Greater New Orleans (page 18)




                                             7
                                                                                SCHEDULE A

                             GREATER PITTSBURGH LITERACY COUNCIL
                           SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                SAN DIEGO COUNCIL ON LITERACY

                                                        PY          PY          PY
                                                     2006-2007   2007-2008   2008-2009     Notes
Claimed Federal Costs                                      $0     $110,278   $172,059
Questioned Federal Costs:
  Missing documentation of criminal history checks        $0        $4,671   $166,439        2
  Returning members without prior-year end-of-term
  evaluation                                               0        22,394          0       3
  Insufficient citizenship documentation                   0        13,237          0       4
  Improper living allowance payments                       0           472          0       5
  Healthcare for part-time members                         0             0          0      6, 2
  Unsupported worker’s compensation costs                  0           354          0       7
  Total Questioned Federal Costs                          $0       $41,128   $166,439
Questioned Education Awards:
  Timekeeping discrepancies                           $43,525      $26,158    $43,528        1
  Missing documentation of criminal history checks          0            0      7,088        2
  Returning members without prior-year end-of-term
  evaluation                                                0            0          0        3
  Insufficient citizenship documentation                    0        1,876          0        4
  Total Questioned Education Awards                   $43,525      $28,034    $50,616

Questioned Accrued Interest Awards                      $714           $45       $915        8


    1. SDCOL’s member timekeeping documentation was insufficient to support member
       service hours. Test results for initial and expanded member samples are discussed
       below.

        Initial Member Sample. Timesheet hours did not agree with hours reported in the
        Corporation’s Web Based Reporting System (WBRS)/My AmeriCorps Portal for six of
        seven members in the initial member sample. WBRS was still active in PYs 2006-2007
        and 2007-2008. The Portal became effective for PY 2008-2009.




                                                 8
The timesheet hours for four of seven members were insufficient to qualify the members
for education awards.

                               WBRS/                   Hours          Questioned
                      Member   Portal   Timesheet    Required for     Education
       PY              No.     Hours      Hours        Award           Awards
       2007-2008        1        455        447           450           $1,250
       2007-2008        2      1,709      1,705         1,700                0
       2007-2008        3      1,291      1,279         1,291               33
       2007-2008        4      1,700      1,630         1,700            4,725
       2008-2009        5        900       929            900                0
       2008-2009        7        900     854/757          900            2,363
       Total                                                            $8,371


Timesheets for one PY 2008-2009 member (No. 7) contained added estimated hours,
that were not tracked on a daily basis and did not show time-in and time-out hours. We
deducted the estimated hours:

                                                                    Estimated
                        Member    Timesheet     Estimated            Hours
          PY             No.        Hours      Hours Added          Deducted
          2008-2009       7          854            97                 757

Expanded Member Sample. Timesheet hours did not agree with hours reported in
WBRS for 25 of 33 members. Details follow.

Unsupported Hours for Education Awards. Timesheet hours did not agree with hours
reported in WBRS for 7 of 13 PY 2006-2007 members and for all 6 PY 2007-2008
members. Timesheets hours for 8 of these 13 members were insufficient to qualify the
members for education awards.




                                        9
                                                           Hours         Questioned
                    Member     WBRS     Timesheet        Required for    Education
       PY            No.       Hours      Hours            Award          Awards
       2006-2007      8        1,701      1,586             1,700          $4,725
       2006-2007     10        1,714      1,745             1,700                0
       2006-2007     12        1,707      1,774             1,700                0
       2006-2007     13          300        270               300           1,000
       2006-2007     14        1,745      1,674             1,700           4,725
       2006-2007     15        1,795      1,800             1,700                0
       2006-2007     16        1,703      1,610             1,700           4,725
       Total                                                              $15,175

      2007-2008       21        1,714        1,680           1,700         $4,725
      2007-2008       22          468          319             450          1,250
      2007-2008       23        1,729        1,719           1,700              0
      2007-2008       24          675          466             675         Note 4
      2007-2008       25        1,726        1,520           1,700          4,725
      2007-2008       26        1,753        1,709           1,700              0
      Total                                                               $10,700


Timesheet hours did not agree with hours reported in the Portal for 12 of 14 PY 2008-
2009 members. The timesheet hours for 10 members were insufficient to qualify the
members for education awards.

                                                       Hours         Questioned
               Member      Portal   Timesheet        Required for    Education
  PY            No.        Hours       Hours           Award           Awards       Notes
  2008-2009      27          300         111              300          $1,000
  2008-2009      28        1,700       1,386            1,700           4,725
  2008-2009      29        1,700    1,601/1,277         1,700           4,725         a.
  2008-2009      30          900         735              900           2,363
  2008-2009      31        1,700       1,542            1,700           4,725
  2008-2009      32        1,714       1,644            1,700           4,725
  2008-2009      33          932         861              900           2,363
  2008-2009      36        1,700       1,299            1,700           4,725
  2008-2009      37        1,768       1,709            1,700               0
  2008-2009      38          900         872              900           2,363
  2008-2009      39        1,702       1,708            1,702               0
  2008-2009      40          900      867/841             900           2,363         b.
  Total                                                               $34,077


a. The file for one PY 2008-2009 member (No. 29) contained two timesheets per period
   from September 15, 2008, through March 15, 2009, and not all timesheets were
   dated. Further, timesheet hours for the same periods did not agree. Other timesheet
   hours of 818 for this member for the period March 16 through August 18, 2009,
   agreed, and were dated. We calculated 1,277 total service hours from dated


                                        10
   timesheets (459 + 818) and 1,601 total service hours from undated and dated
   timesheets (783 undated + 818 dated).

b. The file for one PY 2008-2009 member (No. 40) contained two timesheets for the
   May 16-31, 2009 period. Hours and signature dates on both timesheets were
   different. Other timesheet hours of 792 for this member for the balance of the
   service year agreed, and were dated correctly. We calculated 841 total service
   hours using the 49 hours from the June 4, 2009, timesheet and timesheet hours for
   the balance of the service year (49 + 792) and 867 total service hours using the 75
   hours from the August 6, 2009, timesheet and timesheet hours for the balance of the
   service year (75 + 792).

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
Subsection C.2, AmeriCorps Members, requires grantees to keep time-and-attendance
records for all AmeriCorps members to document their eligibility for in-service and post-
service benefits. The Corporation uses time-and-attendance information in WBRS to
track member status, which forms the basis for calculating education awards.

Further, 2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
Subsection E.1, Program Requirements, states that to be eligible for an education
award, the member must complete the term of service and hours:

       Full-time members must serve at least 1,700 hours;
       Half-time members must serve at least 900 hours;
       Reduced half-time members must serve at least 675 hours;
       Quarter-time members must serve at least 450 hours; and
       Minimum-time members must serve at least 300 hours

Unsigned Timesheets. Some member timesheets in the expanded sample were
missing member signatures. We deducted service hours reported on member
timesheets for eight members whose timesheets were missing member signatures.
After deducting hours from unsigned timesheets, the hours shown did not qualify the
members for education awards.


                   Member             Timesheet Hours           Hours       Questioned
           PY       No.       Total     Unsigned Adjusted      Required     Ed Awards
       2006-2007     11       1,712         85      1,627       1,700         $4,725
       2006-2007     16       1,610       128       1,482       1,700       See above
       2006-2007     20       1,701         10      1,691       1,700          4,725
       2007-2008     21       1,680         76      1,604       1,700       See above
       2007-2008     25       1,520       455       1,065       1,700       See above
       2007-2008     26       1,709       600       1,109       1,700          4,725
       2008-2009     30         735       243         492         900       See above
       2008-2009     34         100       100           0      No Award      No Award
       Total                                                                 $14,175


2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
Subsection C.2, requires grantees to keep time-and-attendance records for all
AmeriCorps members to document their eligibility for in-service and post-service

                                         11
benefits. Time-and-attendance records must be signed and dated by both the member
and supervisor.

Handwritten and Adjusted Timesheet Hours. Timesheets for ten PY 2006-2007
members and for four PY 2007-2008 members from the expanded sample showed
estimated hours added to timesheets. These hours were handwritten, not tracked on a
daily basis, and did not show time-in and time-out hours. After we deducted the
handwritten hours, remaining hours were insufficient to qualify the members for
education awards.

                 Member             Timesheet Hours              Hours    Questioned
       PY          No.      Total    Handwritten  Adjusted      Required Ed Awards
   2006-2007        8       1,586        30         1,556        1,700    See above
   2006-2007        9       1,706        40         1,666        1,700      $4,725
   2006-2007       10       1,745        50         1,695        1,700       4,725
   2006-2007       11       1,712        40         1,672        1,700    See above
   2006-2007       12       1,774        55         1,719        1,700           0
   2006-2007       14       1,674        80         1,594        1,700    See above
   2006-2007       15       1,800        55         1,745        1,700           0
   2006-2007       16       1,610        40         1,570        1,700    See above
   2006-2007       17       1,702        40         1,662        1,700       4,725
   2006-2007       18       1,783        20         1,763        1,700           0
   2007-2008       21       1,680       515         1,165        1,700    See above
   2007-2008       22         319        17           302          450    See above
   2007-2008       23       1,719        10         1,709        1,700           0
   2007-2008       25       1,520        48         1,472        1,700   See above
   Total                                                                   $14,175



AmeriCorps requirements address policy but do not address specific timesheet
procedures, which is the responsibility of the grantee or subgrantee. It is, however, good
business practice for people making alterations to timesheets to initial their changes.
Accountability will be maintained and timesheets will be consistent with member and
management intentions.

Hours for Other Activities. Timesheets for 26 of 33 members contained hours
performed while members were at home. Timesheets for one PY 2006-2007 member
and one PY 2007-2008 member itemized home hours, as shown on the table below. On
most of the other member timesheets, members did not separate home hours from
onsite hours, making it impossible to determine the exact number of home and site
hours.

Home service hours were inconsistent with SDCOL’s grant application, which described
member service activities as serving at education centers and providing onsite tutoring
to individuals, small groups, and classrooms.

After deducting home hours for the two members, the remaining hours were insufficient
to qualify the members for education awards:



                                        12
                     Member               Timesheet Hours             Hours       Questioned
            PY        No.         Total       Home     Adjusted      Required     Ed Awards
        2006-2007      12        1,774         162       1,612        1,700         $4,725
        2008-2009      38          872         290         582          900       See above
        Total                                                                       $4,725


   Also, timesheets for five members had service hours for various activities and events
   that were identified as a volunteer happy hour, field trips to the beaches and amusement
   parks, overnight hours, watching and attending sporting events, 23- and 24-hour service
   days, and attending a “good-bye” lunch. These activities were inconsistent with
   SDCOL’s grant application. After deducting home hours for the two members discussed
   above, remaining hours were insufficient to qualify the members for education awards:

                    Member            Timesheet Hours                 Hours       Questioned
          PY         No.        Total   Deducted    Adjusted         Required     Ed Awards
      2007-2008       23        1,719       90        1,629            1,700         $4,725
      2008-2009       32        1,644        4        1,640            1,700      See above
      2008-2009       35          906       15          891              900          2,363
      2008-2009       36        1,299        1        1,298            1,700       See above
      2008-2009       39        1,708       25        1,683            1,700           4,725
      Total                                                                         $11,813


   Without procedures to verify member activities or timesheet accuracy, the potential
   exists that members may perform activities prohibited by AmeriCorps provisions or may
   receive education awards to which they are not entitled.

   According to the grant application, member service activities included serving at
   education centers and providing on-site tutoring and instruction to individuals, small
   groups, and classrooms.

   Summary. We questioned education awards for those members who did not meet
   minimum requirements or hours certified to earn education awards. The prorated
   portion of the partial education award for one PY 2007-2008 member is included in the
   education awards questioned for citizenship in Note 4. (See Compliance Finding 2.)

                                                    Members with
                                 Members             Questioned
                        PY        Tested          Education Awards     Amount
                  2006-2007         13                   10             $43,525
                  2007-2008         10                    8              26,158
                  2008-2009         17                   13              43,528
                  Total             40                   31            $113,211


2. SDCOL did not maintain documentation to demonstrate that members had criminal
   history checks or that criminal history checks for each member complied with
   AmeriCorps requirements. All 7 members in the initial sample and all 24 members in the
   expanded sample did not have this documentation.



                                             13
   45 Code of Federal Regulations (CFR) § 2540.202, What two search components of the
   National Service Criminal History Check must I satisfy to determine an individual’s ability
   to serve in a covered position?, requires programs to conduct State criminal history
   checks and National Sex Offender Public Registry (NSOPR) searches. Further, 45 CFR
   § 2540.205, What documentation must I maintain regarding a National Service Criminal
   History Check for a covered position?, requires grantees to:

      a) Document in writing that you verified the identity of the individual in a covered
         position by examining the individual’s government-issued photo identification
         card, and that you conducted the required checks for the covered position;
         and

      b) Maintain the results of the National Service Criminal History check (unless
         precluded by State law) and document in writing that you considered the
         results in selecting the individual.

   SDCOL stated that it is the responsibility of the service sites to obtain criminal
   background checks for the members. While the criminal background check
   documentation may reside at subgrantee service sites, SDCOL is still required to
   document in writing that it verified the identity of the individual, conducted required
   checks, and considered the results in selecting the individual.

   After we informed SDCOL that it was required to maintain documentation demonstrating
   compliance with the Corporation’s criminal history check regulations, SDCOL and GPLC
   provided letters from its seven service sites certifying that members received criminal
   background checks. The certification letters stated criminal history checks were
   conducted but did not, however, provide evidence that criminal background checks were
   conducted in accordance with AmeriCorps regulations.

   As of November 23, 2007, the effective date of these regulations, this became an
   eligibility issue for members. Ten of 12 PY 2007-2008 members were subject to the
   former regulations. SDCOL’s noncompliance with the regulations for these members is
   discussed in Compliance Finding 3. The 2 remaining PY 2007-2008 members and all 19
   PY 2008-2009 members were ineligible.

   We questioned living allowances and benefits totaling $4,671 for the two PY 2007-2008
   members (Nos.1 and 22). We questioned education awards for these members in Note
   1, above. We also questioned living allowances and benefits of $166,439 for all 19 PY
   2008-2009 members (Nos. 5-7 and 27-40) and education awards of $7,088 for 2 PY
   2008-2009 members (Nos. 5 and 37). We questioned education awards for the
   remaining PY 2008-2009 members (Nos. 6-7 and 27-40) who earned education awards
   in Note 1. (See Compliance Findings 1. and 3.)

3. SDCOL did not conduct end-of-term evaluations for two PY 2006-2007 members who
   served second terms in PY 2007-2008 and two PY 2007-2008 members who served
   second terms in PY 2008-2009.

   2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection D.6, Performance Reviews, requires mid-term and end-of-year member
   performance evaluations. According to 45 CFR § 2522.220(c), Eligibility for Second


                                            14
   Term, a participant is not eligible for a second or additional term of service and/or for an
   AmeriCorps education award without satisfactory performance evaluations.

   We questioned living allowances, benefits, and education awards for these members,
   because without end-of-term evaluations, they were ineligible for second terms. We
   questioned living allowances and benefits of $22,394 for the two PY 2007-2008
   members (Nos. 4 and 26). We questioned education awards for these members in Note
   1. We questioned living allowances, benefits, and education awards for the two PY
   2008-2009 members (Nos. 30 and 33) in Note 1 above. (See Compliance Findings 1
   and 5).

4. Four of 7 members in the initial sample and 8 of 24 in the expanded sample did not have
   proper citizenship documentation. Files for four members in the initial sample and six in
   the expanded sample had only driver’s licenses and Social Security cards. Files for the
   other two members in the expanded sample had no citizenship documentation. After we
   identified this issue, SDCOL provided citizenship documentation for 8 of the 12
   members.

   According to 45 CFR § 2522.200, What are the eligibility requirements for an
   AmeriCorps participant, every AmeriCorps participant must be a citizen, national, or
   lawful permanent resident of the United States. Further, Section III, Minimum
   Qualifications, of the Literacy*AmeriCorps member agreement requires a member to
   submit a birth certificate, U.S. passport, permanent resident alien card, and other
   documentation to support eligibility. Driver’s licenses and Social Security cards do not
   establish citizenship.

   Not verifying citizenship before a member begins service resulted in ineligible members.
   We questioned living allowances, benefits, and education awards for four members
   without proper citizenship documentation. We questioned living allowances and benefits
   totaling $13,237 for two members (Nos. 24 and 51) in this note, questioned living
   allowances and benefits for one member (No. 6) in Note 2, and questioned living
   allowances and benefits for one member (No. 26) in Note 3.

   We questioned the education award of $1,876 for one PY 2007-2008 member (No. 24)
   in this note and questioned the education award for one PY 2007-2008 member (No.26)
   in Note 1. (See Compliance Findings 1 and 4.)

5. SDCOL did not distribute living allowance payments in accordance with applicable
   provisions. It increased the incremental amount of living allowance paid to members
   who started service late. As a result, members who completed the program earned the
   same amount of living allowance regardless of their start dates.

   We identified two PY 2007-2008 and four PY 2008-2009 members with increased living
   allowance payments totaling $3,886. We calculated and questioned differences
   between amounts members received and amounts they were entitled to receive. Our
   calculations follow:




                                            15
                                   Member        Member       Questioned
                        PY          No.            Type      Federal Costs
                     2007-2008        2          Full Time        $472
                     2007-2008       51          Full Time          86
                     2008-2009        5          Half Time         256
                     2008-2009        6          Full Time         256
                     2008-2009       31          Full Time         512
                     2008-2009        7          Half Time       2,304
                                                                $3,886


   2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection I.1, Living Allowance Distribution, states that if a member enrolls after a
   program start date, the program must provide regular living allowance payments from
   the member’s start date. The program may not increase the member’s living allowance
   incremental payment or provide a lump sum to “make up” any missed payments.

   Questioned living allowances totaling $3,414 for all but Member No. 2 are included in the
   living allowance questioned in Note 2 above. We questioned the remaining $472 in this
   note. (See Compliance Finding 7.)

6. SDCOL claimed $2,005 of healthcare payments as Federal costs for three PY 2008-
   2009 half-time members. According to the 2007 AmeriCorps Grant Provisions, Section
   IV, AmeriCorps Special Provisions, Subsection I.5, Health Care Coverage, the
   Corporation will not cover health care costs for less than full-time members.

                                  Member      Member          Questioned
                       PY           No.        Type          Federal Costs
                    2008-2009        5        Half Time           $836
                    2008-2009       33        Half Time            901
                    2008-2009       40        Half Time            268
                                                                $2,005


   We questioned the $2,005 of unallowable health care payments. These costs are
   included in the questioned costs in Note 2 above. (See Compliance Finding 1.)

7. SDCOL claimed $1,895 for member worker’s compensation costs as Federal costs, but
   only $676 was documented in its accounting detail reports. OMB Circular A-122, Cost
   Principles for Non-Profit Organizations, Attachment A, Paragraph A.2, Factors affecting
   allowability of costs, states that an award cost must be adequately documented to be
   allowable. We questioned $865 of the $1,219 of unsupported Federal costs in Notes 2-5
   above. We questioned the remaining $354 of unsupported costs in this note (See
   Compliance Finding 8.)

8. The Corporation made accrued interest payments for student loans to SDCOL members
   whose education award we questioned because the members did not serve the required
   number of hours (one member in Note 2 and five members in Note 1).

   45 CFR § 2529.10(a), Eligibility, states that the Corporation will pay interest that accrues
   on an individual’s qualified student loan only if the member successfully completes a
   term of service in an approved AmeriCorps position.

                                            16
            Member    Ed Award    Accrued Interest          Reason for
   PY        No.     Questioned     Questioned        Questioned Payments
2006-2007     10       Note 1          $100          Hours for other activities
2006-2007     17       Note 1           614          Hours for other activities
                                       $714
2007-2008    26        Note 1            $45         Hours for other activities

2008-2009    32        Note 1           $159         Hours for other activities
2008-2009    29        Note 1            253         Hours for other activities
2008-2009     5        Note 2            503         No background check
                                        $915




                                  17
                                                                                   SCHEDULE B

                            GREATER PITTSBURGH LITERACY COUNCIL
                         SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                         LITERACY ALLIANCE OF GREATER NEW ORLEANS

                                                     PY 2007-2008    PY 2008-2009    Notes
Claimed Federal Costs                                 $204,347         $218,291
Questioned Federal Costs:
  Returning member without prior-year end-of-term
  evaluation                                                 $0         $10,559         1
  Criminal history checks not performed                       0           1,679         2
  Program operating costs claimed as member
  support costs                                           1,346               0         3
  Living allowance paid outside service period              550               0         4
  Unallocable costs                                           0             250         5
  Unallowable Unemployment insurance                          0              29         6
      Subtotal                                           $1,896         $12,517
  Administrative Costs                                     $100            $658         7
  Excess administrative costs                                 0           2,965         8
  Total Questioned Federal Costs                         $1,996         $16,140
Questioned Education Awards:
  Returning member without prior-year end-of-term
  evaluation                                                 $0           $4,725        1
  Timesheet discrepancies                                     0            2,363        9
  Unsigned timesheets                                         0                0       10
  Compelling personal circumstances not adequately
  documented                                              1,759                0       11
Total Questioned Education Awards                        $1,759           $7,088


  1. LAGNO did not conduct end-of-term performance evaluations for two of five sampled PY
     2007-2008 members and for three of four sampled PY 2008-2009 members. One PY
     2007-2008 member (No. 45) without an end-of-term evaluation served a second term in
     PY 2008-2009.

      2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
      Subsection D.6, requires mid-term and end-of-term member performance evaluations.
      According to 45 CFR § 2522.220(c), a participant is not eligible for a second or
      additional term of service and/or for an AmeriCorps education award without satisfactory
      performance evaluations.

      We questioned the member’s PY 2008-2009 Federal-share living allowance and fringe
      benefits of $10,559 and education award of $4,725, because without an end-of-term
      evaluation, the member was ineligible for a second term. (See Compliance Finding 5.)

  2. LAGNO did not perform a criminal history check on one PY 2008-2009 member (No.
     46). According to 45 CFR § 2540.205, grantees must document in writing that the
     following were conducted:

                                               18
      The identity of the individual in a covered position was verified by examining the
       individual’s government-issued photo identification card;

      Required checks for the covered position were conducted;

      Results of the National Service Criminal History Check were maintained, unless
       precluded by state law; and

      Results were considered in selecting the individual.

   Further, 45 CFR § 2540.203, When must I conduct a State criminal registry check and
   NSOPR check on an individual in a covered position?, required the state criminal
   registry check to be conducted on an individual who enrolled or was hired by the
   program after November 23, 2007.

   The criminal history process was delayed in PY 2008-2009 because LAGNO’s program
   coordinator was on leave at the beginning of the program year, and did not understand
   which forms were required by the State to complete the checks. By the time the criminal
   history checks were submitted to the State, the member had left the program.

   Not obtaining criminal background checks on members with substantial, recurring
   contact with children and vulnerable populations before a member’s start date may
   present a danger to the population they are serving. This is an eligibility issue for
   members who enrolled after November 23, 2007. We questioned the member’s PY
   2008-2009 Federal-share living allowance and fringe benefits of $1,679. (See
   Compliance Finding 3).

3. LAGNO claimed $1,346 of program operating costs as member support costs. It
   claimed $64 for a member criminal history check processing fee (February 2008) and
   $1,282 of food expenses for the end-of-year recognition ceremony (August 2008).
   LAGNO could not claim these costs as Federal program operating costs because it
   would have exceeded its budget. LAGNO did not provide documentation of prior written
   approval for deviating from its approved budget.

   2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection M.3, Budgetary Changes, states that the grantee must obtain prior written
   approval from the Corporation’s Office of Grants Management before deviating from the
   approved budget by reallocating funds from the member support cost category to other
   categories of the approved budget. We questioned $1,346 for reallocated costs claimed
   without prior written approval. (See Compliance Finding 1.)

4. LAGNO claimed living allowance and benefits paid to one member (No. 42) for the time
   period between program years when the member was not enrolled. The member
   completed PY 2006-2007 service on December 31, 2007, and started PY 2007-2008
   service on January 24, 2008. The member received a living allowance payment on
   January 18, 2008, for the period January 5-18, 2008. In addition, this member’s living
   allowance payment was calculated using the $505 PY 2007-2008 rate instead of the
   $419 PY 2006-2007 rate. We questioned $550 of living allowance and benefits paid to
   this member. (See Compliance Finding 7).


                                           19
5. LAGNO claimed $250 in room rental fees for the PY 2009-2010 member pre-service
   orientation in August 2009. These costs are not allocable to the PY 2008-2009 project
   period or to the grant award.

   OMB Circular A-122, Attachment A, 4, Allocable costs, states that a cost is allocable to a
   particular cost objective in accordance with the relative benefits received. We
   questioned $250 of unallocable costs. (See Compliance Finding 1).

6. In August 2009, LAGNO claimed $29 of personnel fringe benefits for State
   unemployment insurance (SUTA) for members.

   LAGNO did not provide evidence that it was required to report SUTA for its members.
   According to the 2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special
   Provisions, Subsection I.3.d, Unemployment Insurance:

       The U.S. Department of Labor ruled on April 20, 1995, that Federal
       unemployment compensation law does not require coverage for members
       because no employer-employee relationship exists. The grantee may not charge
       the cost of unemployment insurance taxes to the grant unless mandated by state
       law. Programs are responsible for determining the requirements of state law by
       consulting their State Commission, legal counsel or the applicable state agency.
       AmeriCorps National and AmeriCorps Tribes and Territories grantees must
       coordinate with their State Commissions to determine a consistent treatment of
       unemployment insurance requirements.

   We questioned the $29 of Federal costs. (See Compliance Finding 7).

7. Questioned costs in Notes 3 and 4 resulted in $100 ($1,896 x 5.26%) of unallowable
   administrative costs in PY 2007-2008. Questioned costs in Notes 1, 2, 5, and 6 resulted
   in $658 ($12,517 x 5.26%) of unallowable administrative costs in PY 2008-2009.

8. In PY 2008-2009, LAGNO claimed $2,965 of excess administrative costs. It claimed
   $13,725 of administrative costs. The allowable amount of administrative costs was
   $10,760 (5.26% x Allowable Section I and II costs of $204,566).

   Per the 2008 AmeriCorps National Application Instructions, Submitting Your Application
   in eGrants, Section VIII, Budget; Section III, Administrative/Indirect Costs; Subsection B,
   Options for Calculating Administrative/Indirect Costs; administrative costs are calculated
   by multiplying the sum of the Corporation funding shares of Sections I and II by 0.0526.
   The Corporation’s share of administrative costs is limited by statute to five percent of the
   total Corporation funds actually expended under this grant.

   We questioned the $2,965 of Federal costs.

9. One PY 2008-2009 member (No. 48) had two timesheets for the May 16-31, 2009,
   service period. We obtained the first timesheet during onsite testing from LAGNO’s file
   for the member, and LAGNO subsequently provided the second timesheet. The
   timesheets did not agree, as follows:

      Service hours recorded for two days differed.


                                            20
      Daily time-in and time-out hours differed.

      Total hours differed.

      Timesheet signatures and dates varied. One timesheet was unsigned by the
       member (and signed by the supervisor and dated June 4, 2009). The second
       timesheet was signed by the member and dated May 31, 2009 (and signed by the
       supervisor but undated).

   Because of the timesheet discrepancies described above, we questioned the education
   award of $2,363 for this PY 2008-2009 member. (See Compliance Finding 2).

10. Timesheets for one PY 2007-2008 member (No. 45) did not agree with hours reported in
    WBRS. In addition, the timesheet for January 29-31, 2008, was missing member and
    supervisor signatures. We deducted service hours reported on the unsigned timesheet.

                                           Hours
                                               Unsigned          After
                WBRS           Timesheet      Timesheets       Deduction
                 633              580             23             557

   2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions,
   Subsection C.2, requires grantees to keep time-and-attendance records for all
   AmeriCorps members to document their eligibility for in-service and post-service
   benefits. Time-and-attendance records must be signed and dated by both the member
   and supervisor.

   After deducting hours on unsigned timesheets, remaining hours did not support WBRS
   hours used to calculate the member’s partial education award. We questioned a
   prorated portion of the partial education award of $211 [(633/1,700 hours x $4,725)-
   (557/1,700 hours x $4,725)] for this member. The $211 questioned education award is
   included in the questioned education award in Note 11 below. (See Compliance Finding
   7).

11. LAGNO did not have sufficient documentation to demonstrate that one PY 2007-2008
    member (No. 45) exited early from the program due to a compelling personal
    circumstance. It provided us with internal correspondence from the program coordinator
    discussing the compelling circumstance, but did not have documentation from the
    member.

   According to 45 CFR § 2522.230, Under what circumstances may AmeriCorps
   participants be released from completing a term of service, and what are the
   consequences?, an AmeriCorps program may release a participant from completing a
   term of service for compelling personal circumstances as demonstrated by the
   participant, or for cause. Further, the participant has the primary responsibility for
   demonstrating that compelling personal circumstances prevent the participant from
   completing the term of service. We questioned the member’s prorated education award
   of $1,759. (See Compliance Finding 7.)




                                            21
                                                                                     EXHIBIT B


                          GREATER PITTSBURGH LITERACY COUNCIL
                                  COMPLIANCE RESULTS

Results of our agreed-upon procedures identified the compliance findings described below.

Finding 1.   Subgrantees claimed unallowable and unsupported costs.

Notes to Schedules A and B describe questioned costs of $225,703, which are summarized
on Exhibit A. A questioned cost is an alleged violation of provision of law, regulation,
contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds or a finding that, at the time of testing, such cost was not supported by
adequate documentation.

Match-cost exceptions identified in Compliance Finding Nos. 8 and 9 resulted in overstated
match costs claimed. GPLC had substantial overages in match requirements on this grant,
and these offset the match exceptions identified. As a result, we did not question
overclaimed match costs.

General Recommendations: We recommend that the Corporation:

   1a. Calculate and seek to recover the appropriate amount of disallowed costs based on
       our costs questioned;

   1b. Calculate and seek to recover administrative costs related to the disallowed costs;
       and

   1c. Instruct GPLC and its subgrantees to review applicable regulations and develop
       policies and procedures to ensure that claimed costs are allowable, adequately
       documented, and allocable in accordance with applicable cost principles and
       regulations.
.
GPLC’s Response: GPLC did not concur with all questioned costs. It provided detailed
responses to questioned costs in Exhibit A, Schedule B, Notes 3, 5, 7, and 8, which are
summarized below:

      Note 3: GPLC stated that the Federal share of the prime grantee budget did not
       exceed the maximum.

      Note 5: GPLC concurred with the questioned costs. The misallocation of PY 2008-
       2009 costs was a clerical error, and LAGNO has added additional checks to its
       accounting system to prevent this type of error from occurring again.

      Note 7: GPLC did not concur with the amount of questioned costs used in the
       calculation of administrative costs.




                                            22
      Note 8: GPLC did not concur with the total amount of unallowable cost and did not
       concur with the Total Allowable Section I and Section II amounts used to calculate
       questioned administrative costs.

GPLC’s responses for the other questioned costs in this section are summarized in
Compliance Findings 2-8, below.

Accountants’ Comments: GPLC’s response to Note 5 is responsive to our
recommendations, and we recommend that the Corporation recover these costs and related
administrative costs. We continue to make the recommendations stated above for Notes 3,
7, and 8.

Finding 2.    Subgrantees had weaknesses in member timekeeping procedures and,
              in some instances, timesheets did not support member eligibility for
              some education awards.

We tested timesheets for 49 members (40 at SDCOL and 9 at LAGNO). As described
below, timesheet hours were not always accurately recorded in WBRS or the Portal, and we
identified weaknesses in how timesheets were prepared.

      Timesheets for 31 SDCOL members tested did not agree with hours recorded in
       WBRS or the Portal.

      Estimated and handwritten hours were added to timesheets for 15 SDCOL members
       (10 from PY 2006-2007, 4 from PY 2007-2008, and one from PY 2008-2009).

      Timesheets for 11 SDCOL members (3 from PY 2006-2007, 4 from PY 2007-2008,
       and 4 from PY 2008-2009) were missing signatures.

      Timesheets for 31 SDCOL members (10 from PY 2006-2007, 8 from PY 2007-2008,
       and 13 from PY 2008-2009) contained hours performed while members were at
       home. On most timesheets, home hours were not separated from service-site hours,
       and we could not determine home and service-site hours. Home and service-site
       hours were separated on timesheets for one PY 2006-2007 member and one PY
       2008-2009 member. Hours served at home is an activity inconsistent with the grant
       application, which describes member activities as serving at education centers and
       providing on-site tutoring and instruction to individuals, small groups, and in
       classrooms.

      Timesheets for seven SDCOL members (one from PY 2007-2008 and six from PY
       2008-2009) in the expanded sample had service hours for unallowable activities and
       events. These included a volunteer happy hour, field trips to beaches and
       amusement parks, overnight hours, watching and attending sporting events, 23- and
       24-hour service days, and attending a “good-bye” lunch. These activities were also
       inconsistent with the member activities described in the grant application.

      Files for two PY 2008-2009 SDCOL members contained multiple timesheets for the
       same period with differing service hours.

      Timesheets for five PY 2007-2008 and four PY 2008-2009 LAGNO members tested
       did not agree with hours recorded in WBRS or the Portal.

                                          23
      Timesheets for three LAGNO members (two from PY 2007-2008 and one from PY
       2008-2009) were missing signatures.

      One PY 2008-2009 LAGNO member had two timesheets for the same period, but
       with service hours on different days, different time-in and time-out hours, different
       daily hours, different total hours, and different member and supervisor signatures
       and dates.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
C.2, requires that grantees keep time-and-attendance records for all AmeriCorps members
to document their eligibility for in-service and post-service benefits. The Corporation uses
time-and-attendance information entered in the Portal (and formerly in WBRS) to track
member status, which forms the basis for calculating education awards.

AmeriCorps requirements address policy but do not address specific timesheet procedures.
It is, however, good business practice to check the accuracy of hours recorded on
timesheets. Without procedures to verify member activities or timesheet accuracy, the
potential exists that members may perform prohibited activities or may receive education
awards to which they are not entitled. We questioned education awards for those members
who did not meet the minimum requirements to earn education awards as the result of
timesheet discrepancies or did not meet minimum requirements after we deducted
unallowable hours. The prorated portion of the partial education award for one PY 2007-
2008 member is included in the education awards questioned for citizenship in Schedule A,
Note 4.

                                                      Members with
                                        Members        Questioned       Questioned
           Program         PY            Tested        Ed Awards         Amounts
           SDCOL        2006-2007          13              10             $43,525
           SDCOL        2007-2008          10               9              26,158
           SDCOL        2008-2009          17              12              42,528
                                           40              31            $112,211
           LAGNO        2007-2008            5               1                  $0
           LAGNO        2008-2009            4               1               2,363
                                             9               2              $2,363




                                            24
We noted weaknesses in timekeeping procedures. A summary of timesheet discrepancies
by program follows:

                                                          Number of Members
           Discrepancy                                   SDCOL        LAGNO
           Timesheets altered with whiteout                 2            3
           Timesheets signed in advance                     4            1
           Corrections not initialed                        5            6
           Timesheet not original                           5            8
           Signature not dated                              9            4
           Missing timesheets                              13            0
           Alterations made in pencil                       0            1
           Multiple timesheets signed on the same day       3            1
           Total                                           41           24


AmeriCorps requirements address policy but do not address specific timesheet procedures,
which is the responsibility of the grantee or subgrantee. It is, however, good business
practice to maintain original documents, initial changes, make corrections without pencil or
whiteout, sign and date documents. As a result, accountability is maintained, and
timesheets are consistent with member and management intentions. GPLC stated that it
was implementing an electronic timekeeping system for members in PY 2009-2010. As a
result, many of the weaknesses cited above should be resolved.

Recommendations: We recommend that the Corporation:

   2a. Disallow and, if already used, recover education awards and accrued interest awards
       made to members who did not serve the minimum required service hours;

   2b. Require GPLC to strengthen its training and monitoring procedures to ensure that
       subgrantees maintain proper member timesheets; and

   2c. Verify that training and monitoring of GPLC’s electronic timesheet system have been
       implemented.

GPLC’s Response: GPLC acknowledged that the timekeeping systems used during PYs
2006-2007, 2007-2008, and 2008-2009 had weaknesses, and concurred that SDCOL did
not have position descriptions in member files.

GPLC implemented an online timekeeping system in PY 2009-2010 and stated that this
system prevents mistakes, such as lack of signatures or dates, math errors, missing
timesheets, multiple timesheets for a period, changes not initialed, and other errors. GPLC
provided all subgrantees with system training, and the national coordinator regularly
monitors member logs. GPLC collected the missing position descriptions and will provide
them to the Corporation.

GPLC did not agree with service hours questioned for unallowable activities. It stated that
the one-sentence description of member activities was taken from SDCOL’s subgrantee
application, and the auditors disallowed any hours that did not fit into this one-sentence
description. It further stated that the SDCOL subgrantee application, as well as GPLC’s


                                            25
application to the Corporation, included a more expansive description of member activities
than was described by the auditors.

GPLC did not agree with questioned education and accrued interest awards for six
members. It stated that it remitted payment to the Corporation on February 26, 2010, for all
of the members with questioned education and accrued interest awards. Therefore, it does
not believe these costs should be questioned in the final report.

GPLC will work with the Corporation during the resolution process to resolve this finding.

Accountants’ Comments: GPLC’s actions concerning the electronic timekeeping system,
position descriptions, and remittance of questioned education awards are responsive to the
recommendations.

We reviewed SDCOL’s subgrantee application and GPLC’s application to the Corporation.
While the GPLC and SDCOL applications mentioned that the members would be performing
outreach, the applications specifically stated that SDCOL members would be performing
outreach at book fairs and volunteer fairs, not at any of the unallowable activities described
earlier in this finding.

Finding 3.     Subgrantees did not maintain documentation to demonstrate that
               criminal history checks were conducted for all members and were in
               compliance with AmeriCorps Provisions.

SDCOL did not document in writing that it conducted required criminal history checks and
considered their results in selecting its members. LAGNO did not conduct a criminal history
check for one PY 2008-2009 member.

SDCOL Criminal History Checks

SDCOL did not maintain documentation to demonstrate that members had criminal history
checks or that background checks for each member complied with AmeriCorps regulations.
The files for all 7 members in the initial sample and all 24 members in the expanded sample
did not have any criminal history documentation. This issue was identified by GPLC in its
2006 and 2009 monitoring reports for SDCOL.

SDCOL indicated that it is the responsibility of the individual service sites to obtain criminal
background checks for their respective members. Background check documentation was
maintained at the service sites. After we informed SDCOL that it was required to maintain
documentation demonstrating compliance with the Corporation’s criminal history check
regulations, SDCOL and GPLC provided letters from the service sites for seven members
certifying that they received background checks. The certification letters stated criminal
history checks were conducted but did not provide evidence that background checks were
conducted in accordance with AmeriCorps regulations.

LAGNO Criminal History Checks

LAGNO did not perform a criminal history check on one PY 2008-2009 member. The
process was delayed in PY 2008-2009 because LAGNO’s program coordinator was on
leave at the beginning of the program year, and also did not understand which forms were


                                             26
required by the State to complete the checks. By the time the history checks were
submitted to the State, the member had left the program.

Criteria

45 CFR § 2540.202 requires programs to conduct state criminal history checks and National
Sex Offender Public Registry (NSOPR) searches. Further, 45 CFR § 2540.205, requires
grantees to:

       a) Document in writing that you verified the identity of the individual in a covered
          position by examining the individual’s government-issued photo identification
          card, and that you conducted the required checks for the covered position;
          and

       b) Maintain the results of the National Service Criminal History check (unless
          precluded by State law) and document in writing that you considered the
          results in selecting the individual.

Not obtaining criminal background checks on members with substantial recurring contact
with children and vulnerable populations before a member’s start date could present a
danger to the populations those members are serving. As of November 23, 2007, the
effective date of the regulation, this became a member eligibility issue.

Criteria

45 CFR § 2540.203 requires state criminal registry checks to be conducted on individuals
who enrolled or were hired by the program after November 23, 2007. The NSOPR check
was required to be performed on an individual who was serving or applied to serve in a
covered position on or after November 23, 2007.

Ten of 12 PY 2007-2008 SDCOL members were subject to the pre-November 23
regulations. We did not question education awards for these members, although the 2
remaining members and all 19 PY 2008-2009 SDCOL members were ineligible. As
discussed in Schedule A, Note 2, we questioned education awards for these members. As
discussed in Schedule B, Note 2, we questioned living allowances and benefits for the one
LAGNO member.

Timeliness of Criminal History and NSOPR Checks

We identified the timeliness weaknesses described below:

      Background check letters from the SDCOL member service sites indicated that sites
       did not receive criminal history check results for the four members until after the
       members had started their service. The time lapse in conducting the checks for the
       four members ranged from 25 to 257 days.

      SDCOL did not perform NSOPR checks in a timely manner for 2 PY 2007-2008
       members and 19 PY 2008-2009 members. Days lapsed in conducting the checks for
       the two PY 2007-2008 were 490 and 532 days. Days lapsed in conducting the
       checks for the 19 PY 2008-2009 members ranged from 207 to 385. The checks for
       21 members were not conducted until after GPLC’s June 2009 monitoring visit.

                                            27
      LAGNO did not receive the criminal history results for four PY 2007-08 members and
       three PY 2008-2009 sampled members until after members started service. The
       days lapsed in conducting the checks ranged from 31 to 177. LAGNO stated that
       while the criminal history checks were not received in a timely manner, service sites
       did not allow the members to be unsupervised.

      LAGNO did not conduct NSOPR checks timely for two sampled PY 2007-2008
       members and four sampled PY 2008-2009 members.

Criteria

45 CFR § 2540.202 requires programs to conduct state criminal history checks and NSOPR
searches. A subsequent paragraph, 45 CFR § 2540.204(c), suggests that the checks
should be completed prior to member enrollment. Specifically, it states, “Document the
individual’s understanding that selection into the program is contingent upon the
organization’s review of the individual’s criminal history, if any;”

Further, 45 CFR § 2540.205 requires grantees to document in writing that results were
considered when selecting members for the program.

Recommendations: We recommend that the Corporation:

   3a. Disallow and, if already used, recover education awards and accrued interest awards
       made to members with questioned education awards;

   3b. Provide guidance to GPLC to ensure that its subgrantee programs conduct,
       maintain, and retain documentation to support member background checks
       conducted in compliance with AmeriCorps provisions; and

   3c. Verify that GPLC has implemented effective background check procedures.

GPLC’s Response: GPLC provided responses on SDCOL criminal history checks,
LAGNO criminal history checks, and the timeliness of NSOPR checks. Its responses
are summarized below.

SDCOL Criminal History Checks. GPLC concurred that SDCOL was not able to
produce results of criminal background checks. GPLC collected documentation from the
service sites that checks had been performed, which the auditors did not accept.
GPLC stated that checks were conducted on members, and that the members were
not threats to the program. GPLC will work with the Corporation during audit
resolution to verify this response.

LAGNO Criminal History Checks. GPLC stated that the missing background check at
LAGNO was an isolated issue that resulted from the program coordinator’s maternity
leave and the member leaving service early. The LAGNO director has subsequently
been trained on the background check procedure to ensure that a backup is available
to complete this requirement.




                                          28
Timeliness of Criminal History and NSOPR Checks. GPLC stated that the Corporation
has provided clear guidance that results of criminal history checks can be received after a
member begins service if the member is not unsupervised until receipt of the results. It
provided the following as support:

       Frequently Asked Questions; Published by Corporation – 10/29/07 7.8 Why
       doesn’t the rule bar someone from serving until the criminal registry
       results are received? …Because state criminal registry check results can
       sometimes take weeks or more to complete, the rule does not prohibit an
       individual from serving while the check is pending. However, the individual may
       not have unsupervised access to children, persons age 60 and older, or
       individuals with disabilities while waiting for the results of the state criminal
       registry check. Further, the individual (including grantee-funded staff) must also
       be physically accompanied at all times by either a participant or staff member
       who has been cleared for such access.

During the GPLC monitoring of SDCOL, the national coordinator found no documentation of
NSOPR checks in member files for PY 2008-2009. The SDCOL program coordinator
certified that she ran the checks, but the documentation was misfiled or lost. Therefore, the
national coordinator re-ran the checks to ensure that documentation supported compliance
with regulations. GPLC stated that it created a stronger, more detailed background check
policy in October 2009 that was approved by the Corporation.

Accountants’ Comments: Our responses on SDCOL criminal history checks, LAGNO
criminal history checks, and timeliness of NSOPR checks are summarized below.

SDCOL Criminal History Checks. Documentation collected by GPLC as evidence that
SDCOL performed background checks consisted of letters from member service sites
certifying that members received background checks. The letters did not provide evidence
that background checks were conducted, in accordance with AmeriCorps regulations. We
continue to recommend that the Corporation disallow and, if already used, recover
education awards and accrued interest awards made to members with questioned education
awards.

LAGNO Criminal History Checks. GPLC’s actions are responsive to the
recommendations.

Timeliness of Criminal History and NSOPR Checks. It appears that GPLC complied with
guidance provided by the Corporation. As stated above, such guidance, which would allow
a person to serve prior to determining their suitability to do so, is contrary to the Federal
regulation. The Corporation should ensure that its guidance to grantees is compliant and
consistent with Federal regulations. In addition, the Corporation should verify that GPLC
has provided training to its subgrantees, and implemented procedures consistent with the
Federal regulation, to prevent a recurrence of this issue.

Finding 4.   Subgrantees did not comply with AmeriCorps citizenship eligibility
             requirements.

We tested 16 members at SDCOL and LAGNO. Files for the four PY 2007-2008 members
at SDCOL contained unacceptable documentation to support citizenship, such as
Employment Eligibility Verification (I-9) forms documenting review of member Social

                                            29
Security cards and driver’s licenses. At the request of the OIG, we expanded testing to the
remaining 24 members from PY 2007-2008 and PY 2008-2009. Eight of the 24 members in
the expanded sample also did not have proper citizenship documentation. Files for two
members had no citizenship documentation, and files for six members had driver’s licenses
and Social Security cards, which are not acceptable to verify citizenship.

Criteria

According to 45 CFR § 2522.200, every AmeriCorps participant is required to be a citizen,
national, or lawful permanent resident alien of the United States. In addition, 2007
AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection C.1,
Member Enrollment Procedures, states that an individual is enrolled as an AmeriCorps
member when the program has verified a member’s eligibility to serve.

SDCOL indicated it was unaware that I-9 forms documenting review of Social Security cards
and driver’s licenses were inadequate support for citizenship. GPLC noted missing
citizenship documentation during its 2008 and 2009 monitoring visits. In addition, Section III
of the member agreement used by SDCOL identifies documents needed to verify
citizenship. After we discussed the issue with the SDCOL and GPLC representatives,
SDCOL provided citizenship documentation for seven PY 2007-2008 members and one PY
2008-2009 member.

Not verifying citizenship before a member’s start date could result in enrolling ineligible
members who are not citizens, nationals, or lawful permanent residents. As discussed in
Schedule A, Note 4, we questioned education awards for the four members without proper
citizenship documentation.

In addition, citizenship verification forms were dated after the start of service for one PY
2008-2009 SDCOL member and six LAGNO members (two from PY 2007-2008 and four
from PY 2008-2009). Documentation indicated that the delays in verifying citizenship
ranged from 3 to 342 days.

                                                           Citizenship      Number of
                                         Start Date on     Verification    Days to Verify
              PY        Member No.        Timesheet            Date         Citizenship
           2007-2008       44              10/19/07         10/22/07             3
           2007-2008       45              09/17/07         08/18/08            336
           2008-2009        7              01/22/09         08/04/09            194
           2008-2009       46              09/20/08         10/08/08             18
           2008-2009       47              09/22/08         07/14/09            295
           2008-2009       48              09/22/08         08/30/09            342
           2008-2009       49              09/22/08         07/14/09            295

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
C.1.a.ii, states that an individual is enrolled as an AmeriCorps member when “[t]he program
has verified the individual’s eligibility to serve.”




                                            30
GPLC proposed a corrective action in its August 2009 monitoring report for its June 2009
visit to SDCOL. GPLC informed SDCOL that it was not to enroll members until it submitted
citizenship verification forms to GPLC and received GPLC’s approval to enroll.

Recommendations: We recommend that the Corporation:

   4a. Disallow and, if already used, recover education awards and accrued interest awards
       made to members who did not have the proper citizenship documentation;

   4b. Require GPLC to strengthen its subgrantee training and monitoring to ensure that
       subgrantees comply with AmeriCorps eligibility requirements; and

   4c. Verify implementation of GPLC’s corrective action plan for determining the eligibility
       of its members at SDCOL.

GPLC’s Response: GPLC agreed that citizenship documentation was missing from
member files, but certified that the members in question were eligible to serve. GPLC was
able to provide missing citizenship documentation for all but four questioned members
before the exit conference, subsequently collected two more documents, and will provide
them and the last two missing documents to the Corporation during resolution.

GPLC provides subgrantees with an enrollment checklist indicating that citizenship
verification and completion of the I-9 forms is an eligibility requirement. It will continue to
provide training in this area and will monitor subgrantee compliance. Starting in PY 2009-
2010, GPLC implemented a policy that requires subgrantees to submit citizenship
verification to GPLC before enrolling members.

Accountants’ Comments: GPLC’s actions are responsive to the recommendations.

Finding 5.   Subgrantees could not demonstrate that some members received
             performance evaluations, and all end-of-term evaluations did not meet
             AmeriCorps requirements.

SDCOL and LAGNO could not demonstrate that some members received end-of-term
performance evaluations.

SDCOL did not conduct mid-term or end-of-year evaluations for all members. SDCOL
stated that it was unaware that it had to perform evaluations even though conducting the
evaluations was identified as an issue in GPLC’s 2006, 2008, and 2009 subgrantee
monitoring reports. In addition, the requirement for evaluations is discussed in Section IV,
C, of the member agreement used by SDCOL.

LAGNO did not conduct end-of-term evaluations for two of five sampled members in PY
2007-2008, and for three of four sampled members in PY 2008-2009.

In addition, none of the evaluations tested at LAGNO indicated if the members had
completed the required number of service hours to be eligible for education awards.
LAGNO stated that the process in the Literacy AmeriCorps program was for the service-site
supervisors to conduct end-of-year evaluations for terms completed at the service site and
provide members with performance feedback. The program coordinator is responsible for
verifying that the member completed the required number of hours and for making the final

                                             31
decision that the member successfully completed their term of service. The program
coordinator’s final determination of successful completion is documented on the exit form,
which is signed by both the program coordinator and the member.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
D.6, states that grantees must conduct and keep records of at least a mid- and end-of-term
written evaluation of each member’s performance for full- and half-time members and an
end-of-term written evaluation for less than half-time members to document that the member
has:

      Completed the required number of hours;
      Satisfactorily completed assignments; and
      Met other performance criteria communicated at the beginning of the service term.

Evaluations are necessary to ensure that members are eligible for additional service terms,
and that grant objectives have been met. We identified five returning members without end-
of-year evaluations for their first term:

      Two PY 2007-2008 SDCOL members were returning members from PY 2006-2007
       and two PY 2008-2009 SDCOL members were returning members from PY 2007-
       2008.

      One PY 2008-2009 LAGNO member was a returning member from PY 2007-2008.

Criteria

According to 45 CFR § 2522.220(c), a participant is not eligible for a second or additional
term of service and/or for an AmeriCorps education award without satisfactory performance
evaluations. As discussed in Schedule A, Note 3, we questioned education awards for
these members.

We identified other issues with mid- and end-of-term evaluations. The evaluation for one PY
2007-2008 member did not have a supervisor signature and another for one PY 2008-2009
member was not signed by the member.

Recommendations: We recommend that the Corporation:

   5a. Disallow and, if already used, recover education awards and accrued interest awards
       made to members who were not eligible to receive an award; and

   5b. Train GPLC on requirements for member evaluations and ensure that it strengthens
       its training and monitoring procedures for conducting and documenting member
       evaluations.

GPLC’s Response: GPLC did not concur with the questioned costs and education awards.
GPLC agreed that a final evaluation is necessary, but stated that the exit form and all other
supporting documentation retained in a member file also serve as notification that the
member successfully completed the first term of service. Additionally, GPLC stated that the


                                           32
program coordinator evaluates whether a member completed the service hour requirement
when the member is exited from the program in the Portal.

Accountants’ Comments: GPLC did not respond to the recommendations. We continue
to make the recommendations stated above.

Finding 6.   Subgrantees did not complete all member enrollment and exit forms and
             enter them into the Corporation’s reporting systems in accordance with
             AmeriCorps requirements.

We reviewed member contracts, enrollment forms, change of status forms, and exit forms
for 16 sampled members. The two subgrantees tested did not enter some member
enrollment and exit forms into WBRS or the Portal within 30 days after members started or
ended their service terms. The number of late instances for each situation is noted below:

                                                   PY             PY           Days to
   Type of Form                                 2007-2008      2008-2009       Approve
   SDCOL
   Enrollment Form (Approved in WBRS/Portal)         3              0           32-127
   Exit Form (Approved in WBRS/Portal)               3              2           32-112
   LAGNO
   Enrollment Form (Approved in WBRS/Portal)         3              1           39-155
   Exit Form (Approved in WBRS/Portal)               5              2           46-262

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
E.2, Notice to the Corporation’s National Service Trust, states that the grantee must notify
the Corporation’s National Service Trust within 30 days upon entering into a commitment
with an individual to serve; upon a member’s enrollment; and completion of lengthy or
indefinite suspension from, or release from, a term of service.

In addition, we noted other compliance issues with the member forms:

      The file for one PY 2007-2008 LAGNO member did not have an exit form.

      The file for one PY 2008-2009 LAGNO member did not have an exit form, and the
       member’s exit date was unknown; however, documentation was provided to show
       that the member had exited the program and received an education award.

      The file for one PY 2007-2008 SDCOL member did not contain the hard copy of the
       exit form. A copy of the WBRS exit form was placed in the file, but it was unsigned
       by the member.

      The exit form for one PY 2008-2009 SDCOL member was signed by the supervisor
       but was not signed by the member. SDCOL stated that the member did not respond
       to requests to sign. The member was suspended on March 31, 2009, and the exit
       form was not completed until October 15, 2009. In addition, sections of the form
       relating to certifying hours and eligibility were incomplete.


                                           33
Criteria

2007 AmeriCorps Grant Provisions, Section V, General Provisions, Subsection E, Retention
of Records, requires grantees to retain all program records for three years from the date of
submission of the final FSR. AmeriCorps requirements do not specifically address
procedures for preparing forms. It is, however, good business practice to maintain original
forms, complete all sections, and to obtain all necessary signatures.

Without timely completion and submission of enrollment and exit forms, the Corporation
cannot maintain accurate member records. This may also impact the member’s eligibility to
receive an education award.

Recommendations: We recommend that the Corporation:

   6a. Require GPLC to strengthen its subgrantee training and program monitoring
       procedures to ensure proper completion of member enrollment, change of status,
       and exit forms; and

   6b. Verify that member forms at GPLC sites are properly completed and submitted in
       accordance with grant requirements.

GPLC’s Response: GPLC concurred with this finding, and stated that it provides all
subgrantees with an enrollment and exit checklist that indicates which forms are required.
When members leave unexpectedly or on bad terms, it is sometimes difficult to collect a
signed exit form from the individual. GPLC has written, clear guidelines on necessary steps
and documentation for instances such as this. It continues to provide training and technical
assistance to subgrantees to ensure that forms are submitted on time.

Accountants’ Comments: GPLC’s actions are responsive to the recommendations.

Finding 7.   GPLC and its subgrantees did not follow certain AmeriCorps
             requirements.

GPLC, SDCOL, and LAGNO did not comply with AmeriCorps requirements relating to living
allowances, pre-service orientation training, position descriptions, member agreements,
fundraising, member unemployment insurance, and compelling personal circumstances.

Living Allowances

GPLC did not ensure that SDCOL and LAGNO complied with provisions regarding the
payment of member living allowances.

      SDCOL provided catch-up living allowance payments totaling $3,886 to two PY
       2007-2008 members and four PY 2008-2009 members.

      LAGNO claimed living allowances and benefits totaling $550 paid to one member
       during the period between two program years when the member was not actually
       enrolled. The member completed PY 2006-2007 service on December 31, 2007,
       and started PY 2007-2008 service on January 24, 2008. The member received a
       living allowance payment on January 18, 2008, for the period January 5-18, 2008. In


                                           34
       addition, LAGNO calculated this member’s living allowance payment using the PY
       2007-2008 $505 rate instead of the PY 2006-2007 $419 rate.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
I.1, states that programs should pay living allowances in regular increments, such as weekly
or bi-weekly, paying an increased increment only for increased living expenses, such as
food, housing, or transportation. It also states that the program is not permitted to provide
“lump sum” payments of remaining living allowances upon a member’s early completion of a
term of service or provide “make-up” missed payments.

Pre-Service Orientation Training

SDCOL did not provide documentation to demonstrate that members in either program year
tested received AmeriCorps pre-service orientation before starting their terms of service. It
did not retain sign-in sheets from orientation sessions, and was unaware of the need for any
documentation. In addition, LAGNO did not provide documentation that one PY 2007-2008
member attended AmeriCorps pre-service orientation before starting service. LAGNO did
not have an orientation sign-in sheet, but the member’s timesheet indicated the member
was at the service site during the days orientation was conducted.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
D, Training, Supervision, and Support, Subsection 3, states that grantees must conduct
orientation for members and comply with any pre-service orientation or training required by
the Corporation. In addition, grantees are required to provide members with training, skills,
knowledge, and supervision necessary to perform tasks required in their assigned project
positions, including specific training in a particular field and background information on the
community served.

Position Descriptions

SDCOL’s member agreement did not include a position description describing member
duties and responsibilities in the AmeriCorps program. In addition, SDCOL’s member files
did not contain position descriptions for all four PY 2007-2008 and all three PY2008-2009
members sampled. The only document that SDCOL could provide was a position
description template provided to service sites. Not developing complete and accurate
member position descriptions could result in members participating in unallowable activities.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
D.1, Planning for the Term of Service, states that the grantee must develop member position
descriptions that provide for meaningful service activities and performance criteria
appropriate to member skill levels. In planning for the term of service, the grantee must
account for holidays and other time off, and must provide each member with sufficient
opportunity to make up missed hours.



                                            35
Member Agreements

Two SDCOL and five LAGNO sampled members started service before signing member
agreements. The number of days between start of service and signing of the agreements
ranged from 5 to 193 days.

                                                                Days to Sign
           PY                  Program           Members      Member Agreement
           PY 2007-2008        SDCOL                1                 9
           PY 2008-2009        SDCOL                1                 5
           PY 2007-2008        LAGNO                4              7-193
           PY 2008-2009        LAGNO                1                14

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
C.1, Member Enrollment Procedures, Subsection b, stipulates that AmeriCorps Programs
are required to sign a member contract with an individual or otherwise enter a legally
enforceable commitment as defined by State law before enrolling a member.

In addition, three PY 2007-2008 LAGNO members started their service before the start
dates entered in WBRS. One member started service 2 days before the WBRS start date,
and 2 members started 17 days before the WBRS start dates.

Fundraising

GPLC did not have a procedure to ensure that no more than 10 percent of member service
hours in each program year were spent on fundraising. GPLC indicated it did not have a
procedure to monitor this limit because its members did not perform fundraising. We
identified five SDCOL members with fundraising hours, however, and determined that both
SDCOL and LAGNO did not have procedures to track fundraising hours.

SDCOL members performed fundraising activities, although it did not have procedures to
track fundraising hours. Fundraising hours were included in timesheets for one member in
the original sample and four members in the expanded sample. Members who performed
fundraising activities recorded these service hours as direct service.

SDCOL’s timesheet had two columns, one for direct service and one for training. In the
instances above, service hours spent on fundraising activities were recorded as direct
service. In addition, timesheet descriptions did not clearly identify whether fundraising
activities were to support program service activities or were unallowable fundraising
activities.

We did not identify fundraising hours on timesheets for sampled LAGNO members. LAGNO
did not, however, have procedures to track fundraising hours. Its timesheets had two
columns, one for direct service and one for training. Also, its timesheet procedures did not
mention fundraising.

If these hours are not tracked, program officials will be unaware that members may have
exceeded the 10 percent maximum limitation as specified by 45 CFR § 2520.45, How much
time may an AmeriCorps member spend fundraising?, which states an AmeriCorps member

                                            36
may spend no more than 10 percent of his or her originally agreed-upon term of service, as
reflected in the member enrollment in the National Service Trust, performing fundraising
activities.

Member Unemployment Insurance

As discussed in Schedule B, Note 6, LAGNO claimed $29 of unallowable State
unemployment insurance (SUTA) for members in August 2009, identified as Federal
personnel fringe benefits. In addition, LAGNO claimed $1,182 of SUTA for members as
match Personnel Fringe Benefits in October 2008 through August 2009. LAGNO did not
provide evidence that it was required to pay SUTA for its members, and was unaware of
AmeriCorps requirements for member unemployment insurance.

Criteria

2007 AmeriCorps Grant Provisions, Section IV, AmeriCorps Special Provisions, Subsection
I.3.d:

       The U.S. Department of Labor ruled on April 20, 1995, that Federal
       unemployment compensation law does not require coverage for members
       because no employer-employee relationship exists. The grantee may not charge
       the cost of unemployment insurance taxes to the grant unless mandated by State
       law. Programs are responsible for determining the requirements of State law by
       consulting their State Commission, legal counsel or the applicable State agency.
       AmeriCorps National and AmeriCorps Tribes and Territories grantees must
       coordinate with their State Commissions to determine a consistent treatment of
       unemployment insurance requirements.

Compelling Personal Circumstances

As discussed in Schedule B, Note 11, LAGNO did not have sufficient documentation to
demonstrate compelling personal circumstances for one PY 2007-2008 member who exited
the program early. LAGNO provided correspondence from the program coordinator
discussing the circumstances that led to the member’s exit, but did not have documentation
from the member demonstrating the compelling circumstances as required.

Criteria

According to 45 CFR § 2522.230, an AmeriCorps program may release a participant from
completing a term of service for compelling personal circumstances as demonstrated by the
participant, or for cause. Further, the participant has the primary responsibility for
demonstrating that compelling personal circumstances prevent the participant from
completing the term of service.

Recommendations: We recommend that the Corporation:

   7a. Disallow and, if already used, recover education awards made to members who did
       not meet the AmeriCorps requirements for compelling personal circumstances;

   7b. Require GPLC to strengthen its subgrantee training and monitoring to ensure that
       subgrantees comply with AmeriCorps requirements for living allowance, pre-service

                                          37
       orientation training, position descriptions, member agreements, fundraising, member
       unemployment insurance, and compelling personal circumstances; and

   7c. Verify implementation of GPLC’s strengthened training and monitoring.

GPLC’s Response: GPLC’s responses are summarized below:

      Living Allowance. GPLC concurred with this finding. GPLC reemphasized this
       policy to subgrantees and will continue to provide training and technical
       assistance to subgrantees and monitor subgrantees to ensure compliance. In
       PY 2009-2010, GPLC updated its reimbursement request form to include the
       number of members active on the first day and last days of the month. This
       allows GPLC to better monitor if total living allowances claimed by the
       subgrantee match the number of active members.

      Pre-Service Orientation. While GPLC stated that members do receive pre-service
       orientation, it concurred that orientation documentation at SDCOL was missing.

       Position Descriptions. GPLC concurred that member files at SDCOL were
       missing position descriptions, but stated that such descriptions existed prior to the
       start of member service. GPLC has collected the position descriptions and will
       provide them to the Corporation during the resolution process.

      Member Agreements. GPLC agreed that signing a member agreement is an
       important and required component of being a member, and members sign
       agreements during pre-service orientation held during the first week of the program
       year. GPLC stated that the instances cited in the report were isolated and not
       examples of a systemic problem. GPLC stated that it provides subgrantees with an
       enrollment checklist indicating that signing a member agreement is a requirement of
       enrollment, and will reemphasize the importance of signing agreements at the start
       of a member’s term.

      Fundraising. GPLC concurred that the timekeeping system used during the period
       under review lacked a separate column for fundraising hours, but stated that it
       intends for members to spend the majority of their service hours interacting with adult
       students, and that no member spends more than 10 percent of his/her hours
       engaged in fundraising activities. The online timekeeping system implemented in PY
       2009-2010 includes a separate charge for fundraising.

      Member Unemployment Insurance. GPLC concurred with this finding. GPLC
       ensured that LAGNO corrected this mistake, and will provide training and technical
       assistance to all subgrantees to ensure further compliance with this regulation.

      Compelling Personal Circumstances. GPLC disagreed with this finding and the
       questioned costs and education awards. The regulation does not define
       “demonstrated by member” as a written document from the member. In this case,
       the member demonstrated his compelling personal circumstance for medical reasons
       to his program coordinator, who verified the member’s condition. After verifying the
       condition, the program coordinator made a written request to the national
       coordinator, who granted the release. GPLC believes the regulation was followed
       and the release was justified.

                                            38
Accountants’ Comments: GPLC did not comment on the pre-service orientation issues
found at LAGNO, or the recommendation to strengthen its subgrantee training and
monitoring to ensure that subgrantees comply with pre-service orientation requirements.

We continue to make the recommendation regarding the member with compelling personal
circumstances. In cases involving member illness, we contend that a doctor’s statement
lends greater credibility to the program’s decision that a member is unable to serve and
should be exited from the program early with a pro-rated education award.

GPLC’s actions for the remaining items are responsive to the recommendations.

Finding 8.    One subgrantee’s financial management system did not adequately
              account for and report Federal and match grant costs in accordance with
              Federal requirements.

SDCOL did not adequately account for and report Federal and match costs. It used the
services of an external bookkeeper during eight months of PY 2007-2008. During this time,
reimbursement requests were prepared using a spreadsheet, payroll reports, and reports
from the accounting system showing transaction-level detail for other program costs. This
method resulted in calculation errors, claiming of costs not recorded in the accounting
system, and differences between amounts reported on reimbursement requests and
amounts shown on supporting documents. Examples of errors and differences we identified
follow:

      Living allowance expenses were recorded in the accounting system for 4 months
       as the net costs paid to the members, but gross costs were claimed.

      During November 2007 through May 2008, workers compensation costs were
       claimed as a percentage of member living allowance costs; however, these costs
       were not recorded in the accounting detail reports. As a result, $1,219 of Federal
       and $605 of match costs were unsupported.

      Contractual & Consulting Services costs were claimed as fixed amounts on the
       spreadsheets supporting the reimbursement requests; however, the costs were
       not recorded in the accounting detail reports. Specifically,

            In October 2007, SDCOL claimed $1,381 of accounting services as match costs.
             Invoices only supported $764 of the match costs claimed.

            In February 2008, SDCOL claimed $152 of payroll processing fees as match
             costs. This amount represents 50 percent of payroll processing fees of $304
             recorded on the spreadsheet supporting amounts claimed on the February
             reimbursement request. SDCOL provided invoices supporting $120 of payroll
             processing fees. After multiplying these costs by the percentage used in its
             calculation, only $60 was supported, resulting in a $92 difference.

            In October 2007, SDCOL claimed $30 of other program and operating costs on
             its Periodic Expense Report (PER). These costs were not supported by
             accounting records.


                                            39
        SDCOL claimed personnel costs using a different percentage than was supported by
         timesheets. Specifically, for the January 31, 2008 pay period, timesheets for the
         director of special projects supported a different percentage than the percentage
         identified in the accounting detail report. SDCOL allocated 48 percent of the
         director’s salary, but timesheets supported 45.8 percent. This difference resulted in
         an overclaim of $38.

        We identified differences between amounts reported on reimbursement requests and
         amounts supported by accounting detail reports in several instances. For example,
         in August 2008, SDCOL claimed total costs of $11,425 on its PER, while the
         accounting detail report supported $11,508, a difference of $83. When comparing
         the PER with the accounting detail report, however, we noted that while there was
         only a difference of $83 between the two, SDCOL underclaimed Sections I and III
         costs by $1,296 and overclaimed Section II costs by $1,213.

The differences identified above contributed to the PY 2007-2008 differences shown below:

                                                              PY 2007-2008
                      Description                  Claimed    Supported Unsupported
       Worker’s Compensation, Federal               $1,895        $676     $1,219
       Section I: Program Operating Costs, Match   $31,055      $26,356    $4,699
       Section II: Member Costs-Match              $23,419      $20,925    $2,494

In PY 2008-2009, amounts claimed on SDCOL’s Literacy Alliance Expense Form (LEAF)
reconciled to accounting detail reports provided, except for differences show below:

                                                               PY 2008-2009
                     Description                   Claimed     Supported    Unsupported
    Section I: Travel Costs-Match                  $10,394       $9,204         $1,190
    Section II: Member Costs-Match                 $16,052      $16,544         $ (492)

Criteria

According to 45 CFR § 2543.21, Standards for financial management systems, Subsection
(b), recipient financial management systems must provide for accurate, current, and
complete disclosure of financial results of each Federally-sponsored program.

As discussed in Schedule A, unsupported Federal workers’ compensation costs totaling
$354 are questioned in Note 7 and $865 are questioned in Notes 2-5. In addition, as
discussed in Compliance Finding 1, we did not question overstated match costs, because
GPLC had overages in match requirements on this grant that offset match exceptions
identified.

Recommendations: We recommend that the Corporation:

   8a. Ensure that GPLC trains its subgrantees to maintain complete and accurate
       accounting records.




                                              40
   8b. Require GPLC to adjust its final FFR for the unallowable and unsupported costs
       claimed.


GPLC’s Response: GPLC concurred with this finding.

Accountants’ Comments: GPLC concurred with the finding but did not respond to all
recommendations. We continue to recommend that GPLC adjust its final FFR for the
unsupported and unallowable costs.

Finding 9.   One subgrantee did not adequately account for and report match grant
             costs in accordance with Federal requirements.

LAGNO did not adequately account for and report match costs, as discussed below.

Unsupported Match Costs

LAGNO required its AmeriCorps service sites to report match expenditures each quarter.
Service sites documented their match expenditures using the In-Kind Match Report form.
We used these reports to select and test a sample of costs.

We sampled $7,145 of PY 2008-2009 match costs provided by the New Orleans Public
Library (NOPL)/African American Resource Center (AARC), and $35,570 provided by YMCA
Educational Services. LAGNO did not require its service sites to submit supporting
documentation such as invoices, receipts and timesheets with its match reports. As a result,
LAGNO had to contact the service sites for the documentation. It did not, however, provide
any documentation to support sampled costs. LAGNO stated that most of the supporting
documents were in a New Orleans city department, and the city department had not
responded to LAGNO’s request. LAGNO also indicated that it did not expect to receive the
documents.

PYs 2007-2008 and 2008-2009 match costs provided by these organizations are
summarized below:


                                                    Total Match Provided
             Service Site                       PY 2007-2008     PY 2008-2009
             NOPL/AARC                            $18,381         $ 23,422
             Other NOPL Sites                       10,651          35,552
             YMCA Educational Services              48,587          50,353
             Total                                $77,619         $109,327


In addition, we noted from reviewing LAGNO’s In-Kind Match Reports that it claimed
estimated costs. The following table shows examples of how two service sites used
estimates to develop match costs:




                                           41
                                                                                            Amount
PY and Service Site           Expenditure                          Description              Reported
PY 2008-2009
NOPL/AARC                     Office space            $80/week x 12                           $960
NOPL/AARC                     Printing and copying    In-house copying and printing            $50
NOPL/AARC                     Telephone and           $40 x 4 weeks for December 2008,        $480
                              internet                January and February 2009
PY 2007-2008
Delgado Community College     Supplies                $7,000 budget ÷ 4 quarters = $1,750   $1,750
Delgado Community College     Printing and copying    $2,000 budget ÷ 4 quarters = $500      $500

  Criteria

  According to 45 CFR §2541.240(a)(6), Records:

         Costs and third party in-kind contributions counting towards satisfying a cost
         sharing or matching requirement must be verifiable from the records of grantees
         and subgrantee or cost-type contractors. These records must show how the
         value placed on third party in-kind contributions was derived.

  As discussed in Compliance Finding 1, we did not question overstated match costs because
  GPLC had substantial overages in match requirements on this grant that offset match
  exceptions identified.

  Reporting Match Costs

  LAGNO had an inadequate system for reporting in-kind match contributions. It created a
  master report to summarize in-kind match costs reported by service sites. While totals on
  the master in-kind reports agreed to amounts reported to GPLC on PERs and Literacy LEAF
  reports, master reports did not agree with individual service site reports. Report errors
  occurred because LAGNO did not perform mathematical checks of individual site match
  reports or master in-kind reports.

  As shown below, LAGNO underclaimed in-kind service site match costs by $3,999 in PY
  2007-2008, and by $52,386 in PY 2008-2009.


                                               In-Kind Match Reports
                      PY            Service Sites        Master        Difference
                      2007-2008        $93,216           $89,217         $3,999
                      2008-2009       $300,514          $248,128        $52,386


  Criteria

  45 CFR § 2543.21, Subsection (b), states that recipient financial management systems
  must provide for accurate, current, and complete disclosure of financial results of each
  Federally sponsored program.




                                                 42
Recommendations: We recommend that the Corporation:

   9a. Instruct GPLC to review applicable regulations concerning match costs and develop
       policies and procedures to ensure that subgrantee claimed match costs are
       allowable, adequately documented, and allocable in accordance with applicable cost
       principles and regulations;

   9b. Ensure that GPLC trains its subgrantees to maintain complete and accurate
       accounting records for match costs; and

   9c. Require GPLC to adjust its final FFR for the unsupported match costs.

GPLC’s Response: GPLC concurred with this finding.

Accountants’ Comments: GPLC concurred with the finding but did not respond to all
recommendations. We continue to recommend that GPLC adjust its final FFR for the
unsupported match costs.




                                          43
                         APPENDIX A
_______________________________________________________________
        GREATER PITTSBURGH LITERACY COUNCIL’S
              RESPONSE TO THE DRAFT REPORT
 GREATER I'ITISUUlGII

 LITERACY                               Greater Pittsburgh Literacy Council
 COUNCIL.                               100 Sheridan Square, 4th Floor                         (412) 661-7323
~                                       Pittsburgh, PA 15206                                    fax: 661-3040

Open up a life.


       July 8, 2010


       Stuart Axenfeld
        Assistant Inspector General for Audit
        Corporation for National and Community Service
        1201 New York Avenue, NW, Suite 830
        Washington, DC 20525


        Dear Mr. Axenfeld:


        Enclosed please find comments from Greater Pittsburgh Literacy Council (GPLC) to the Office of
        Inspector General on the agreed-upon procedures for the grant awarded to GPLC by the Corporation for
        National and Community Service. It has been a pleasure working with you and your team during this
        process.


        If you would like to request additional information, please feel free to contact Elizabeth Rivera, National
        Coordinator, at (412) 661-7323 or erivera@gplc.org




        Donald Block
        Executive Director


        Enclosure


       cc: Ron Huritz, OIG Audit Manager; Michael Gillespie, Partner, Cotton & Company




                                                      www.gplc.org
Finding 1.     Subgrantees claimed unallowable and unsupported costs.


Calculate and seek to recover the appropriate amount of disallowed costs based on our costs
questioned;


Calculate and seek to recover administrative costs related to the disallowed costs; and


Instruct GPLC and its subgrantees to review applicable regulations and develop policies and
procedures to ensure that claimed costs are allowable, adequately documented, and allocable
in accordance with applicable cost principles and regulations.


GPLC’s Response:
GPLC does not concur with all questioned costs. Our response to four findings in Exhibit A is
included here. All other findings/questioned costs are addressed in our responses to Findings 2-
9.
Exhibit A Schedule B Note 3: The federal share of the prime grantee budget did not exceed the
maximum.
Exhibit A Schedule B Note 5: GPLC concurs with this finding. The misallocation of PY 08-09
costs to the PY 09-10 grant was a clerical mistake. LAGNO has added additional checks to their
accounting system to prevent this type of clerical mistake from happening again.
Exhibit A Schedule B Questioned Administrative Costs:
Note 7: GPLC does not agree with all of the costs questioned by the auditors, therefore we do
not agree with the amount of administrative costs deemed unallowable by the auditors.
Note 8: GPLC does not agree with the total amount of unallowable costs assigned by the
auditors to LAGNO. Therefore, we contend that the total Allowable Section I and II used to
determine the administrative cost is different from what the auditors used.


Finding 2.  Subgrantees had weaknesses in member timekeeping procedures and, in
some instances, timesheets did not support member eligibility for some education
awards.


2a.   Disallow and, if already used, recover education awards and accrued interest awards
made to members who did not serve the minimum required service hours;


2b.   Require GPLC to strengthen its training and monitoring procedures to ensure that
subgrantees maintain proper member timesheets; and


2c.    Verify implementation of training and monitoring of GPLC’s electronic timesheet system.




                                              -1-
GPLC’s Response:
GPLC acknowledges that timekeeping systems during PY06-07, 07-08, and 08-09 had
weaknesses. GPLC took over as parent organization shortly before the start of PY 06-07 and
inherited the timekeeping system. During our time as parent we identified timekeeping
weaknesses and worked to improve our timekeeping system every year. As a result, GPLC
implemented an online timekeeping system in PY 09-10. This system is very strong and
prevents mistakes such as lack of signatures or dates, math errors, missing timesheets, multiple
timesheets for a period, changes not initialed, etc. GPLC has provided all subgrantees with
training on the system (including manuals) and the national coordinator regularly monitors
member logs.


GPLC does not agree that a portion of the hours should be deemed inappropriate and therefore
unallowable by the auditors. The auditors used a one sentence description of member activities,
taken from SDCOL’s subgrantee application, and disallowed any hours that did not fit into this
one sentence. The one sentence is not a full and accurate description of member activities. The
SDCOL subgrantee application, as well as our grant application to the Corporation, included a
more expansive description of member activities than what the auditors used as a test; for
example, the application included a section outlining how members would be involved in
volunteer and community outreach. While SDCOL did not have member position descriptions in
the member files, which was a clerical mistake and did not follow the policies mandated by
GPLC, GPLC staff was able to collect the missing position descriptions. These position
descriptions were written by service sites as part of service site applications to SDCOL prior to
members beginning service (and not created after the fact for the audit). GPLC will provide the
position descriptions to the Corporation.


Six of the members whose education awards and interest accrual payments were questioned by
the auditors were previously identified by GPLC as a result of our subgrantee monitoring. GPLC
reported this deficiency to the Corporation on 10/21/09 for resolution, received a debt collection
letter from the Corporation on 01/29/10 and remitted payment on 02/26/10. (Member numbers
1, 4, 21, 22, 24, and 25). These costs cannot be questioned as they have been repaid.


GPLC will work with the Corporation during the audit resolution process to resolve this finding.


Finding 3.   Subgrantees did not maintain documentation to demonstrate that criminal
history checks were conducted for all members and were in compliance with AmeriCorps
Provisions.


3a.   Disallow and, if already used, recover education awards and accrued interest awards
made to members with questioned education awards;


3b.    Provide guidance to GPLC to ensure that its subgrantee programs conduct, maintain,
and retain documentation to support member background checks conducted in compliance with
AmeriCorps provisions; and


                                               -2-
3c.    Verify that GPLC has implemented effective background check procedures.




GPLC’s Response:
GPLC concurs that one of its subgrantees (SDCOL) was not able to produce the results of
criminal background checks requested by the auditors. GPLC has collected documentation that
checks were performed from member service sites, which the auditors did not accept. GPLC
maintains that checks were conducted on members and that the members were not threats to
the program. GPLC will work with the Corporation during audit resolution to verify this.
The missing background check at LAGNO was an isolated issue that resulted from the program
coordinator’s maternity leave and the member leaving service early in the term. The LAGNO
director has subsequently been trained on the background check procedure to ensure that if
one staff is out another at LAGNO is able to complete this requirement. All other members at
LAGNO were properly checked.
The lack of background check documentation was an isolated issue at one subgrantee and not
a systemic problem. The contract with that subgrantee has not been renewed. GPLC is
confident that all other subgrantees follow the background check policy correctly, and we
regularly monitor compliance.


Timeliness of checks:
Criminal history checks: the Corporation has provided clear guidance that results of criminal
history checks can be received after a member begins service if the member is not
unsupervised until receipt of the results.


Frequently Asked Questions; Published by Corporation - 10/29/07
7.8 Why doesn’t the rule bar someone from serving until the criminal registry results are
received?
The rule does bar selection until an individual has been checked against a sex offender registry.
An individual listed on a sex offender registry is not eligible to serve in a covered position.
Because state criminal registry checks results can sometimes take weeks or more to complete,
the rule does not prohibit an individual from serving while that check is pending. However, the
individual may not have unsupervised access to children, persons age 60 and older, or
individuals with disabilities while waiting for the results of the state criminal registry check.
Further, the individual (including grant-funded staff) must also be physically accompanied at all
times by either a participant or staff member who has been cleared for such access.


NSOPR checks:
SDCOL – During GPLC monitoring of SDCOL the national coordinator found no documentation
of NSOPR checks in member files for PY 08-09. The program coordinator certified that she had
conducted the checks but the documentation was misfiled or lost. Therefore, the national
coordinator re-ran the checks to ensure documentation existed of compliance with the



                                              -3-
regulation that no individual with a positive hit on NSOPR is enrolled. No enrolled members had
a positive hit.


GPLC created a stronger and more detailed background check policy in October 2009 that was
approved by the Corporation.


Finding 4.   Subgrantees did not comply with AmeriCorps citizenship eligibility
requirements.


Disallow and, if already used, recover education awards and accrued interest awards made to
members who did not have the proper citizenship documentation;


Require GPLC to strengthen its subgrantee training and monitoring to ensure that subgrantees
comply with AmeriCorps eligibility requirements; and


Verify implementation of GPLC’s corrective action plan for determining the eligibility of its
members at SDCOL.


GPLC’s Response:
GPLC agrees that citizenship documentation was missing from member files but certifies that
the members in question were eligible to serve. GPLC was able to provide missing citizenship
documentation for all but four questioned members before the exit conference, has collected
two more documents and will provide them and the last two documents to the Corporation
during resolution. The lack of citizenship documentation was an isolated issue at one
subgrantee. The contract with that subgrantee has not been renewed. As well, GPLC
implemented a policy, starting in PY 09-10, which requires subgrantees to submit citizenship
verification to GPLC before enrolling members.


The auditors state “In addition, I-9 and citizenship verification forms were dated after the start of
service . . . Documentation indicated that the delays in verifying citizenship ranged from 3 to
756 days.” But, no distinction is made between I-9 signature date and citizenship verification
date in the table that follows. An I-9 form does not verify citizenship, so the date on an I-9 form
cannot be used to indicate when citizenship was verified.


GPLC provides subgrantees with an enrollment checklist indicating that citizenship verification
and completion of I-9 forms is an eligibility requirement. GPLC will continue to provide training in
this area and monitor subgrantee compliance.




                                                -4-
Finding 5.   Subgrantees could not demonstrate that some members received
performance evaluations, and all end-of-term evaluations did not meet AmeriCorps
requirements.


5a.   Disallow and, if already used, recover education awards and accrued interest awards
made to members who were not eligible to serve and receive an award; and


5b.     Train GPLC on requirements for member evaluations and ensure that it strengthens its
training and monitoring procedures for conducting and documenting member evaluations.


GPLC’s Response:
GPLC does not concur with the questioned costs. While agreeing that a final evaluation is
important, GPLC states that the exit form and all other supporting documentation retained in the
member’s file also serve as a notification that the member successfully completed their first term
of service. As well, GPLC does have a mid-term and end term evaluation form used by all
subgrantees. The auditors stated that this evaluation was not sufficient because it did not
contain a question relating to if the member completed the hour requirement. GPLC contends
that evaluation of this requirement of service is provided by the program coordinator when the
member is exited from the program in the Portal.


Finding 6.    Subgrantees did not complete all member enrollment and exit forms and
enter them into the Corporation’s reporting systems in accordance with AmeriCorps
requirements.


6a.    Require GPLC to strengthen its subgrantee training and program monitoring procedures
to ensure proper completion of member enrollment, change of status, and exit forms; and


6b.   Verify that member forms at GPLC sites are properly completed and submitted in
accordance with grant requirements.


GPLC’s Response:
GPLC concurs with this finding. As indicated in the table on pg. 31, the number of late forms
decreased significantly from PY 07-08 to PY 08-09 (from 14 to 5). GPLC provides all
subgrantees with an enrollment and exit checklist which indicates which forms are required.
When members leave service unexpectedly or on bad terms it is sometimes difficult to collect a
signed exit form from the individual. GPLC has written clear guidance on the necessary steps
and documentation for instances such as this.
GPLC continues to provide training and technical assistance to subgrantees to ensure that
forms are submitted on time.




                                              -5-
Finding 7.     GPLC and its subgrantees did not follow certain AmeriCorps requirements.


Disallow and, if already used, recover education awards made to members who did not meet
the AmeriCorps requirements for compelling personal circumstances.


Require GPLC to strengthen its subgrantee training and monitoring to ensure that subgrantees
comply with AmeriCorps requirements for living allowance, pre-service orientation training,
position descriptions, member agreements, fundraising, member unemployment insurance, and
compelling personal circumstances; and


Verify implementation of GPLC’s strengthened training and monitoring.


GPLC’s Response:
Living Allowances
GPLC concurs with this finding. GPLC has reemphasized this policy to subgrantees and will
continue to provide training and technical assistance to subgrantees and monitor subgrantees to
ensure compliance. In PY 09-10 we updated the LEAF (Literacy*AmeriCorps Expense Form) to
include two questions: subgrantees must include the number of members active on the first day
of the month and how many members were active on the last day of the month. This allows
GPLC to better monitor if total living allowances for the subgrantee match number of active
members based on the correct living allowance amount.
Pre-service orientation
GPLC concurs that documentation of pre-service orientation at SDCOL was missing but
contends that members did receive pre-service orientation. The lack of pre-service orientation
documentation was an isolated issue at one subgrantee. The contract with that subgrantee has
not been renewed.
Position descriptions
GPLC concurs that member files in SDCOL were missing position descriptions but contends
that position descriptions did exist prior to the members beginning service; GPLC has collected
these missing position descriptions and will provide them to the Corporation during the
resolution process. The missing position descriptions were an isolated issue at one subgrantee.
The contract with that subgrantee has not been renewed.
Member agreements
GPLC agrees that signing a member agreement is an important and required component of
being a member; members in our program sign agreements during pre-service orientation in the
first week of the program year. The Corporation requires members to be enrolled in the Portal
within 30 days of their first day of service and members in our program sign a contract well
before the 30 day enrollment requirement passes. The instances cited in this report were
isolated instances, caused by a staff member being out on maternity leave, misplaced/misfiled
agreements which were re-signed at a later date to replace the missing original, and staff errors,
and not examples of a systemic problem. GPLC provides subgrantees with an enrollment
checklist indicating that signing a member agreement is a requirement of member enrollment
and will reemphasize the importance of doing this at the beginning of a member’s term.


                                               -6-
Fundraising
GPLC concurs that the timekeeping system during the period under review lacked a separate
column for fundraising hours. But, GPLC contends that our program design and member
activities is for members to spend the majority of their service hours interacting with adult
students and that no member spent more than 10% of their hours engaged in fundraising
activities. The online timekeeping system implemented in PY 09-10 includes a separate charge
for fundraising.
Member unemployment insurance
GPLC concurs with this finding. GPLC has ensured that LAGNO corrected this mistake and will
provide training and technical assistance to all subgrantees to ensure further compliance with
this regulation.
Compelling personal circumstances
GPLC disagrees with this finding and the questioned cost. The regulation does not define
‘demonstrated by member’ as a written document from the member. In this case, the member
demonstrated his compelling personal circumstance, which was a medical condition, to his
program coordinator who verified his condition. After verifying his condition, the program
coordinator made a written request to the national coordinator who granted the release. GPLC
believes the regulation was followed and the release was justified.


Finding 8.   One subgrantee’s financial management system did not adequately
account for and report Federal and match grant costs in accordance with Federal
requirements.


8a.    Ensure that GPLC trains its subgrantees to maintain complete and accurate accounting
records.


8b.    Require GPLC to adjust its final FFR for the unallowable costs.


GPLC’s Response:
GPLC concurs with this finding. This was an isolated issue at one subgrantee; the contract with
that subgrantee has not been renewed.




Finding 9.    One subgrantee did not adequately account for and report match grant
costs in accordance with Federal requirements.


9a.     Instruct GPLC to review applicable regulations concerning match costs and develop
policies and procedures to ensure that subgrantee claimed match costs are allowable,
adequately documented, and allocable in accordance with applicable cost principles and
regulations; and




                                              -7-
9b.    Ensure that GPLC trains its subgrantees to maintain complete and accurate accounting
records for match costs.


9c.    Requires GPLC to adjust its final FFR for the unsupported match costs.


GPLC’s Response:
GPLC concurs with this finding. GPLC provided an In-Kind and Match Reporting training to all
subgrantees at our Literacy*AmeriCorps National Conference in February 2010. GPLC will
continue to provide training and technical assistance on this topic to subgrantees and will more
regularly monitor compliance.




                                              -8-
                         APPENDIX B
______________________________________________________________
 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
              RESPONSE TO THE DRAFT REPORT
                              NATIONAL &
                              COMMUNITY
                              SERVICE

To:           Stuart.A.xenfeld, Assist¥ "

From:

Cc:                  ' Ande son, Chief Fin ial 0 lcer
              Rocco auClio, Deputy CFO, Gr         d Field Financial Management
              John Gomperts, Director of ArneriCorps
              Frank Trinity, General Counsel
              Bridgette Roy, CFO, Administrative Assistant

Date:         July 8, 2010

Subj:         Response to OIG Draft of Agreed-Upon Procedures of Corporation Grants
              Awarded to the Greater Pittsburgh Literacy Council


Thank you for the opportunity to review the draft Agreed-Upon Procedures report oft4e
Corporation's grants awarded to the Greater Pittsburgh Literacy Council. We will
respond to all findings and recommendations in our management decision when the audit
working papers are provided and the final audit is issued.
                         APPENDIX C
______________________________________________________________
        SUMMARY OF QUESTIONED EDUCATION AND
                ACCRUED INTEREST AWARDS
                                   Summary of Questioned Education and Accrued Interest Awards
                                               Greater Pittsburgh Literacy Council

                                                         Questiorie-a
Member                                Questioned           Accrued
Number   Program Year Subgrantee   Education Awards    Interest Awards                                   Description
  1       2007-2008     SDCOL           $1,250                           Schedule A, Note 1, Unsupported Hours for Education Awards
  1       2007-2008     SDCOL       Questioned Above                     Schedule A, Note 2, Criminal History Checks
  3       2007-2008     SDCOL              $33                           Schedule A, Note 1, Unsupported Hours for Education Awards
  4       2007-2008     SDCOL           $4,725                           Schedule A, Note 1, Unsupported Hours for Education Awards
  4       2007-2008     SDCOL       Questioned Above                     Schedule A, Note" 3, Returning Member Without Prior Year Final Evaluation
  5       2008-2009     SDCOL           $2,363              $503         Schedule A, Note 2, Criminal History Checks
  7       2008-2009     SDCOL          $2,363                            Schedule A, Note 1, Unsupported Hours for Education Awards
  7       2008-2009     SDCOL      Questioned Above                      Schedule A, Note 1, Handwritten and Adjusted Timesheet Hours
  7       2008-2009     SDCOL      Questioned Above                      Schedule A,   Note   2,   Criminal History Checks
  8       2006-2007     SDCOL          $4,725                            Schedule A,   Note   1,   Unsupported Hours for Education Awards
  8       2006-2007     SDCOL      Questioned Above                      Schedule A,   Note   1,   Handwritten and Adjusted Timesheet Hours
  9        2006-2007    SDCOL          $4,725                            Schedule A,   Note   1,   Handwritten and Adjusted Timesheet Hours
  10       2006-2007    SDCOL          $4,725               $100         Schedule A,   Note   1,   Handwritten and Adjusted Timesheet Hours
  11       2006-2007    SDCOL          $4,725                            Schedule A,   Note   1,   Unsigned Timesheets
  11       2006-2007    SDCOL      Questioned Above                      Schedule A,   Note   1,   Handwritten and Adjusted Timesheet Hours
  12       2006-2007    SDCOL          $4,725                            Schedule A,   Note   1,   Hours for Other Activities
  13       2006-2007    SDCOL          $1,000                            Schedule A,   Note   1,   Unsupported Hours for Education Awards
  14       2006-2007    SDCOL          $4,725                            Schedule A,   Note   1,   Unsupported Hours for Education Awards
  14       2006-2007    SDCOL      Questioned Above                      Schedule A,   Note   1,   Handwritten and Adjusted Timesheet Hours
  16       2006-2007    SDCOL          $4,725                            Schedule A,   Note   1,   Unsupported Hours for Education Awards
  16       2006-2007    SDCOL      Questioned Above                      Schedule A,   Note   1,   Unsigned Timesheets
  16       2006-2007    SDCOL      Questioned Above                      Schedule A, Note 1, Handwritten and Adjusted Timesheet Hours
  17       2006-2007    SDCOL          $4,725               $614         Schedule A,   Note 1,     Handwritten and Adjusted Timesheet Hours
  20       2006-2007    SDCOL          $4,725                            Schedule A,   Note 1,     Unsigned Timesheets
  21       2007-2008    SDCOL          $4,725                            Schedule A,   Note 1,     Unsupported Hours for Education Awards
  21       2007-2008    SDCOL      Questioned Above                      Schedule A,   Note 1,     Unsigned Timesheets
  21       2007-2008    SDCOL      Questioned Above                      Schedule A,   Note 1,     Handwritten and Adjusted Timesheet Hours
  22       2007-2008    SDCOL          $1,250                            Schedule A,   Note 1,     Unsupported Hours for Education Awards
  22       2007-2008    SDCOL      Questioned Above                      Schedule A,   Note 1,     Handwritten and Adjusted Timesheet Hours
  22       2007-2008    SDCOL      Questioned Above                      Schedule A,   Note 2,     Criminal History Checks
  23       2007-2008    SDCOL          $4,725                            Schedule A,   Note 1,     Hours for Other Activities
  24       2007-2008    SDCOL          $1,876                            Schedule A,   Note 4,     Citizenship
                                     Summary of Questioned Education and Accrued Interest Awards
                                                 Greater Pittsburgh Literacy Council

                                                           Questioned
Member                                  Questioned           Accrued
Number   Program Year   Subgrantee   Education Awards    Interest Awards                                  Description
  24      2007-2008       SDCOL       Questioned Above                     Schedule A, Note 1, Unsupported Hours for Education Awards
  25      2007-2008       SDCOL           $4,725                           Schedule A, Note 1, Unsupported Hours for Education Awards
  25      2007-2008       SDCOL       Questioned Above                     Schedule A, Note 1, Unsigned Timesheets
  25      2007-2008       SDCOL       Questioned Above                     Schedule A, Note 1, Handwritten and Adjusted Timesheet Hours
  26      2007-2008       SDCOL           $4,725              $45          Schedule A, Note 1, Unsigned Timesheets
  26      2007-2008       SDCOL       Questioned Above                     Schedule A, Note 3, Returning Member Without Prior Year Final Evaluation
  26      2007-2008       SDCOL       Questioned Above                     Schedule A, Note 4, Citizenship
  27      2008-2009       SDCOL           $1,000                           Schedule A,   Note 1,   Unsupported Hours for Education Awards
  27      2008-2009       SDCOL       Questioned Above                     Schedule A,   Note 2,   Criminal History Checks
  28      2008-2009       SDCOL           $4,725                           Schedule A,   Note 1,   Unsupported Hours for Education Awards
  28      2008-2009       SDCOL       Questioned Above                     Schedule A,   Note 2,   Criminal History Checks
  29      2008-2009       SDCOL           $4,725              $253         Schedule A,   Note 1,   Unsupported Hours for Education Awards
  29      2008-2009       SDCOL       Questioned Above                     Schedule A,   Note 2,   Criminal History Checks
  30      2008-2009       SDCOL           $2,363                           Schedule A,   Note 1,   Unsupported Hours for Education Awards
  30      2008-2009       SDCOL       Questioned Above                     Schedule A,   Note 1,   Unsigned Timesheets
  30       2008-2009      SDCOL       Questioned Above                     Schedule A,   Note 2,   Criminal History Checks
  30      2008-2009       SDCOL       Questioned Above                     Schedule A,   Note 3,   Returning Member Without Prior Year Final Evaluation
  31       2008-2009      SDCOL           $4,725                           Schedule A,   Note 1,   Unsupported Hours for Education Awards
  31      2008-2009       SDCOL       Questioned Above                     Schedule A,   Note 2,   Criminal History Checks
  32      2008-2009       SDCOL           $4,725              $159         Schedule A,   Note 1,   Unsupported Hours for Education Awards
  32       2008-2009      SDCOL       Questioned Above                     Schedule A,   Note 1,   Hours for Other Activities
  32      2008-2009       SDCOL       Questioned Above                     Schedule A, Note 2, Criminal History Checks
  33       2008-2009      SDCOL           $2,363                           Schedule A, Note 1, Unsupported Hours for Education Awards
  33       2008-2009      SDCOL       Questioned Above                     Schedule A,   Note 2,   Criminal History Checks
  33      2008-2009       SDCOL       Questioned Above                     Schedule A,   Note 3,   Returning Member Without Prior Year Final Evaluation
  35       2008-2009      SDCOL           $2,363                           Schedule A,   Note 1,   Hours for Other Activities
  35      2008-2009       SDCOL       Questioned Above                     Schedule A,   Note 2,   Criminal History Checks
  36       2008-2009      SDCOL           $4,725                           Schedule A,   Note 1,   Unsupported Hours for Education Awards
  36       2008-2009      SDCOL       Questioned Above                     Schedule A,   Note 1,   Hours for Other Activities
  36       2008-2009      SDCOL       Questioned Above                     Schedule A,   Note 2,   Criminal History Checks
  37       2008-2009      SDCOL           $4,725                           Schedule A,   Note 2,   Criminal History Checks
  38      2008-2009       SDCOL           $2,363                           Schedule A,   Note 1,   Unsupported Hours for Education Awards
                                     Summary of Questioned Education and Accrued Interest Awards
                                                 Greater Pittsburgh Literacy Council

                                                           Questioned
Member                                  Questioned           Accrued
Number   Program Year   Subgrantee   Education Awards    Interest Awards                                    Description
  38      2008-2009       SDCOL       Questioned Above                     Schedule A, Note 1, Hours for Other Activities
  38      2008-2009       SDCOL       Questioned Above                     Schedule A, Note 2, Criminal History Checks
  39      2008-2009       SDCOL           $4,725                           Schedule A, Note 1, Hours for Other Activities
  39      2008-2009       SDCOL       Questioned Above                     Schedule A, Note 2, Criminal History Checks
  40      2008-2009       SDCOL           $2,363                           Schedule A, Note 1, Unsupported Hours for Education Awards
  40      2008-2009       SDCOL       Questioned Above                     Schedule A, Note 2, Criminal History Checks
  45      2007-2008       LAGNO           $1,759                           Schedule B, Note 11, Compelling Personal Circumstances Not Demonstrated
  45       2007-2008      LAGNO       Questioned Above                     Schedule B, Note 10, Timesheet Discrepancies
  45      2007-2008       LAGNO           $4,725                           Schedule B, Note 1, Returning Member Without Prior Year Final Evaluation
  48      2008-2009       LAGNO           $2,363                           Schedule B, Note 9, Timesheet Discrepancies
                                         $131,022            $1,674
